     Office of the Inspector General
Tennessee Valley Authority
                 Semiannual Report
 April 1, 2013 - September 30, 2013
Semiannual report April 1, 2013 – September 30, 2013   1
                                                            TENNESSEE VALLEY REGION
                                                                                                                                                                                                                                                                                                                                                 W .     V .

                                                          I L         .
                                                          R i
                                                                                                                                                                                                          K    E    N T       U     C K         Y
                                                      o       v
                                                 i                e
                                                                          r
                                                                                                                                                                              Lovers Lane
                                                                                                                                                                              Soccer Complex
                                             h




                                                                                                                                                           Paradise
                                            O




                                                                                                                                                           Fossil Plant
                                                        Shawnee
                                                      Fossil Plant                                                                                                                                                                                                                                         V     I   R    G     I    N       I       A
                                                                                                       Kentucky
      M   I S      S     O U R I                               Marshall                                Dam & Lock                                                                                                                                                                                                                        Clear Creek Dam
                                                     Combustion Turbine                                                                                                                                                                                                                                Dufﬁeld Primary School                 Beaver Creek Dam
                                   r




                                                                                                                                                                                                                                                                                                          Ft. Patrick Henry Dam South
                                 e




                                                                                                                                                                                                                                                                                                                                 Holston Dam
                                                                                                                                                                                                                                                                                                                        Boone Dam
                             i v




                                                                                                                       C                                                                                                                                   Doakes                                                              Wilbur Dam
                                                                                                                           u                                                                                                                            Creek Dam                      John Sevier
                                                                                                                               m                                                                                                                                                Fossil Plant & Dam
                                                                                                             Cumberland
                           R




                                                                                                                                                                                                                                                                                                                                    Watauga
                                                                                                             Fossil Plant
     A R K .                                                Gleason                                                                                         Adventure               Gallatin Fossil Plant                                                                                                                           Dam




                                                                                                                                   b
                                                            Combustion Turbine                                                                         Science Center               &Combustion Turbine                      Morgan County             Buffalo
                                                                                                                                       r




                                                                                                                                   e
                                                                                                                                           l                                                                             Vocational Technical         Mountain        Norris Dam
                           p i




                                                                                                                                               a                                                                                                                                      Cherokee
                                                                                                                                                   n                                                                                  School                                          Dam                  Nolichucky
                                                                                                                                                       d                                                                                                        Bull Run                                   Dam
                                                                                                                                                            R                                                                                                   Fossil       Ijams
                                                                                                                                                                                                          American Museum of Science and Energy
                       i p




                                                                                                                    Johnsonville                                i v                                                                                             Plant        Nature                Cocke County
                                                                                                                    Fossil Plant &                                  e r                                                                                                      Center Douglas
                                                                                                                                                                                                                                                                                      Dam          High School
                                                                                                                    Combustion Turbine                                                                                                                      Melton
                                                                                                                                                                                                                          Kingston Fossil Plant             Hill Dam
                    s




                                                                                                                                                                                                                                                            & Lock
                  s




                                                                     Cedar
                                                           T         Dam E                                            N                            N                      E                  S                     S                E                  E        Ft. Loudoun Dam & Lock
                                                                                                                                                                                                                                                                                                               N O R T H
                  i




                                                            Pin Oak Dam                                                                                                                                                                                        Tellico
               s




                                                                       Redbud Dam                                                                                                                    Great Falls Dam                                           Dam
                                                           Beech Dam                                                                                                                                                                                                           Dollywood                    C A R O L I N A
              s




                          Lagoon                                       Dogwood Dam                                                                                                                                        Watts Bar            Watts Bar
                                                                                                                                                                                                                                               Dam & Lock
          i




          M                 Creek                     Pine Dam    Lost Creek Dam                                                                                                                                       Nuclear Plant
                       Combustion                         Sycamore Dam                                                                                                                                                                                                      Fontana Dam




                                                                                                                                                                                                                                           r
                           Turbine Brownsville




                                                                                                                                                                                                                                        e
                                                                                                                                                                               Normandy Dam
                                   Combustion Turbine




                                                                                                                                                                                                                                       v
                                                                                                                                                                                                                                  i
                BRIDGES Center                                                                                                                                                                                                                    Apalachia




                                                                                                                                                                                                                                R
                                                                                                                                                                                                 Sequoyah Nuclear Plant                           Dam
                                                                                                                                                                   Tims Ford Dam                                                    Ocoee #1 Dam          Hiwassee Dam
                  Allen Fossil Plant,                                                                                                                                                       Chickamauga Dam & Lock                                              Chatuge Dam
                  Combustion Turbines, & Methane Facility                                                                                                                                                                                     Ocoee #2 Dam
                                                                                                        Pickwick Landing Dam & Lock                                                 Nickajack Dam & Lock
                                                                                                                                                                                                                                                    Ocoee #3 Dam Nottely Dam
                                                                               Florence Water                                                                                                                      Raccoon Finley Stadium                                                                         S O U T H
                   Southaven                                                                                                                                                        Widows Creek                   Mountain
                                                 Magnolia                   Treatment Facility                                                                                        Fossil Plant                 Pumped
                   Combined-Cycle
                   Plant                         Combined-Cycle                                                                        Wheeler Dam
                                                                                                                                       & Lock                                                                      Storage
                                                                                                                                                                                                                                                           Blue Ridge Dam                                      C A R O L I N A
                                                                                                                                                                                      Bellefonte                   Plant



                                                                                                                                                                                                              e
                                                 Plant    Colbert Fossil Plant &                                                               Browns Ferry
                                                                                                                                   Wilson                                          Nuclear Plant

                                                                                                                                                                                                           e
                                                            CombustionTurbine                                                       Dam        Nuclear Plant
                                                                                                                                                                                                          s
                                                                                                                                                                                   (UNDER CONSTRUCTION)
                                                                                                                                   & Lock
                                                                                                                                                                                                     s

                                 University of Mississippi
                                                                                                                                                                                                  e


                                                                                                 e            Cedar Creek Dam
                                 Intramural Sports Complex                                                                                                        Guntersville
                                                                                                                                                                                                 n




                                                                                                               Little Bear Creek Dam
                                                                                    be




                                                                                                                                                                  Dam & Lock
                                                                                                                                                                                             n
                                                                              e e - To m b i g




                                                                                                           Bear Creek Dam
                                                                                                                                                                                          e




                                                                                                                                                                                  Albertville
                                                                                           erw y




                                                                                                                                                                                        T




                                                                                                                                                                                                                                                       G     E   O    R     G     I    A
                                                                                              a




                                                                                                                                                                                  Diesel Generator
                                                                                                            Upper Bear Creek Dam
                                                                                                 Wat
                                                                                 Te n n e s s




           M       I S       S      I S     S    I P         P        I

                                                                                                                                                                                                                                                                                                           LEGEND
                                                           Caledonia                                                                       A       L       A B       A        M A                                                                                         State Line                                     TVA Combined-Cycle Plant
                                                      Combined-Cycle
                                                               Plant                                                                                                                                                                                                      Water                                          TVA Combustion Turbine Plant

                                                                                                                                                                                                                                                                          Power Service Area                             TVA Diesel Generator

                                                                                                                                                                                                                                                                          TVA Watershed                                  TVA Pumped-Storage Plant
                                            Mississippi
                                                  State
                                             University                                                                                                                                                                                                                   TVA Hydroelectric Dam                          TVA Customer Service Ofﬁce

                                                                                                                                                                                                                                                                          TVA Non-Power Dam                              TVA Economic Development Ofﬁce
                                                                                                                                                                                                                                                                                                                         TVA Watershed Team Ofﬁce
                                                                                                                                                                                                                                                                          TVA Coal-Fired Plant
                                                                                                                                                                                                                                                                                                                         Green Power Switch® Solar Site
                                                                                                                                                                                                                                                                          TVA Nuclear Plant
                                                Kemper
                                                                                                                                                                                                                                                                                                                         Green Power Switch® Wind Site
                                             Combustion                                                                                                                                                                                                                   TVA Nuclear Plant
                                                Turbine
                                                                                                                                                                                                                                                                          Under Construction                             Green Power Switch® Methane Site
                                         Meridian
                                           Diesel
                                        Generator                                                                                                                                                                                                                                                  0        20           40         60 mi.
                                                                                                                                                                                                                                                                                      Sept. 2011                                                 N




                                      TVA Power Generation FY 2013
                                                                                                                                               (in millions of kilowatt hours)
                                                                 Natural gas                                                                                              Nonhydro
                                                              and/or oil-fired                                                                                            renewable
                                                                           9%                                                                                             resources                                                             • Coal-fired - 62,519
                                                                                                                                                                          <1%
           Hydroelectric
                   12%                                                                                                                                                                                                                          • Nuclear - 52,100

                                                                                                                                                                                                                                                • Hydroelectric - 18,178

                                                                                                                                                                                                                                                • Natural gas and/or oil-fired - 13,102

                    Nuclear                                                                                                                                                                                                                     • Nonhydro renewable resources - 9*
                      36%
                                                                                                                                                                                                                                  *Operations and maintenance issues reduced the available
                                                                                                                                                                                                          Coal
                                                                                                                                                                                                          43%                     renewable generation during 2013, 2012, and 2011 from
                                                                                                                                                                                                                                  several facilities, including those utilizing methane, solar,
                                                                                                                                                                                                                                  and wind.



2   Semiannual report April 1, 2013 – September 30, 2013
                                TABLE OF CONTENTS


Message from the Inspector General....................................................................................................4

Special Feature......................................................................................................................................6

Noteworthy Undertakings...................................................................................................................14

Executive Overview.............................................................................................................................18

Organization........................................................................................................................................22

Audits...................................................................................................................................................26

Evaluations...........................................................................................................................................36

Investigations.......................................................................................................................................42

Legislation and Regulations.................................................................................................................48

Appendices..........................................................................................................................................50

Appendix 1 – Index of Reporting Requirements Under the Inspector General Act..........................51

Appendix 2 – Audit and Evaluation Reports Issued............................................................................52

Appendix 3 – Audit and Evaluation Reports Issued With Questioned and

                      Unsupported Costs and Recommendations for Better Use of Funds.........................54

Appendix 4 – Audit and Evaluation Reports with Corrective Actions Pending..................................56

Appendix 5 – Investigative Referrals and Prosecutive Results...........................................................59

Appendix 6 – Highlights......................................................................................................................60

Appendix 7 – Government Contractor Audit Findings.......................................................................62

Appendix 8 – Peer Reviews of the TVA OIG.......................................................................................63

Glossary................................................................................................................................................64

Abbreviations and Acronyms...............................................................................................................65




                                                                       Semiannual report April 1, 2013 – September 30, 2013                                   3
    Message from
    the Inspector General
    I am pleased to present our report for the period April 1 to September 30, 2013.
    The fact that the Tennessee Valley Authority (TVA) is facing an environment of
    declining revenue and rising costs has been widely reported. TVA management
    and the TVA Board of Directors (Board) are making hard choices that involve
    cutting costs and at the same time becoming more efficient. Historically, the
    work of the Office of the Inspector General (OIG) has supported cost cutting
    and efficiency goals through our audits, evaluations, and investigations. In our
    feature for this semiannual report, entitled “Making TVA Better,” we discuss how
    our work contributes to helping TVA save or recover money, reduce risks, and
    improve operations. We share a mutual purpose with the TVA Board and TVA
    management in making TVA better.




    In this semiannual period, our              emphasis has been placed on            V	 Information technology
    audit, evaluation, and investigative        the risk management program.              (IT) audits that found TVA
    activities identified more than                                                       modem access controls could
    $42 million in funds to be put          V	 A review of the vehicle                    be improved, protection
    to better use, questioned costs,            allowance and assigned vehicle            of personally identifiable
    recoveries, savings, penalties, and         programs that identified                  information (PII) on TVA
    other monetary loss as well as              improvements to be made                   computers and laptops
    opportunities for TVA to improve            in the administration of both             could be enhanced, and
    its programs and operations.                programs.                                 Federal Information Security
    Some of the highlights include:                                                       Management Act (FISMA)
                                            V	 A congressional request from               controls have improved.
    V	 Fifteen preaward reviews                 the Bicameral Task Force on
       that identified more than                Climate Change regarding               V	 A product substitution
       $36.5 million of potential               whether TVA was meeting                   investigation which resulted in a
       savings opportunities for                applicable environmental                  recovery of more than $700,000
       TVA to use in negotiations               requirements and directives.              through a civil agreement.
       of contracts associated with
       valley-wide engineering              V	 A review of the nuclear                 V	 An allegation that the TVA
       services and work at hydro,              preventive maintenance                    Board violated the Sunshine
       fossil, and nuclear plants.              program found reported metrics            Act in selecting the TVA Chief
                                                may not be accurate and that              Executive Officer (CEO) and
    V	 A review of Bellefonte Nuclear           late and deferred preventive              allegations of nepotism and
       Plant’s (BLN) risk management            maintenance was negatively                conflict of interest involving
       program that found renewed               affecting system health.                  the TVA Chairman of the Board




4         Semiannual report April 1, 2013 – September 30, 2013
   were investigated. There was       the last of four generations of         skills, and he will build on the
   no evidence to support either      Brennans from Ireland who found         tradition of excellence established
   allegation.                        in the United States (U.S.) a natural   by Jack Brennan.
                                      niche in law enforcement. Jack’s
V	 A former TVA Vice President        great-grandfather, Edward James         Also, at the end of this
   pled guilty to conspiracy          Brennan, was one of the original        congressional session in January,
   to violate the International       Federal Bureau of Investigation         Neil McBride will end his service
   Emergency Economic Powers          (FBI) assistant directors who shaped    on TVA’s Board. Director McBride
   Act (IEEPA) and Iranian            the fledgling law enforcement’s         has served on the TVA Board since
   Transactions Regulation and        direction in the early years. Jack      October 2010 and as Chairman
   filing of false income tax         was an “agent’s agent” with lots of     of the Board’s Audit, Risk, and
   returns.                           credibility because he had “done it     Regulation Committee. He has
                                      all” and he had “done it well.”  So,    been an effective Chairman of
On a personal note, I want to         in many ways his retirement marks       this committee and has made
once again thank Jack Brennan         the ending of an era. Jack is the       TVA better by his service on the
for his many contributions to the     example of an employee who made         TVA Board. I want to extend my
OIG. Jack, our Assistant Inspector    TVA better. We salute you Jack.         thanks for his support of the
General for Investigations,                                                   OIG and service to TVA. Finally, I
retired on October 4, 2013, after     I want to congratulate Paul             want to welcome back TVA Board
a distinguished career in law         Houston who has been selected           member Dr. Marilyn Brown.
enforcement of more than 40 years.    as the new Assistant Inspector          We look forward to working
Jack has been recognized both         General for Investigations. Paul is     with Dr. Brown once again as
within our office and by other law    an attorney and agent who joined        she rejoins TVA in the middle of
enforcement agencies as a driving     our office in January 2007, most        these challenging times.
force in aggressive and productive    recently serving as a Special Agent
investigative work on behalf of the   in Charge, after serving more than
OIG and TVA. Jack’s retirement        18 years with the FBI. Paul has
                                                                                      Richard W. Moore
is significant also because he is     strong leadership and technical                    Inspector General




                                                   Semiannual report April 1, 2013 – September 30, 2013             5
                      SPECIAL FEATURE
                           M a k i n g T V A B e tt e r




6   Semiannual report April 1, 2013 – September 30, 2013
Special Feature Making TVA Better
TVA faces eroding revenue due to slower economic times, milder weather, and loss of its largest industrial customer.
Additionally, the fiscal year (FY) 2014 President’s budget has called for a strategic review of options to sell or privatize
the utility. Further, rate pressures are increasing due to rising costs to pay for environmental regulations; operation
and maintenance of its aging infrastructure; and completion of Watts Bar Nuclear (WBN) Plant Unit 2. The key
components of TVA’s mission are to keep rates as low as feasible in the Valley for its customers and to promote
economic development. To best serve the people of the Valley, TVA management is looking closely at how to
cut costs and become more efficient. As we will discuss further in this article, through our audits, evaluations, and
investigations, the OIG is committed to making TVA better by recommending ways to save or recover money, reduce
risk to the company, and promote operational efficiency and effectiveness.



Today, TVA has a new CEO Bill              TVA Better.” We must also carry            to improve the efficiency and
Johnson and new Board members              out our mandate in an efficient            effectiveness of TVA operations.
to lead this government corporation        and effective way and ensure               While the results from these
through its latest challenges.             our resources are focused on               reviews are difficult to quantify, the
Johnson and his restructured               areas of high risk and strategic           results impacted many areas of
management team are focusing on            importance to TVA. In developing           TVA including: (1) improving key
TVA living “within its means” so           our Audits and Evaluations                 business processes, (2) improving
that TVA can continue to serve the         workplan each year, we review              governance functions and
people of the Valley. Living “within       risks identified by TVA’s Enterprise       regulatory activities; (3) improving
its means” will require TVA to make        Risk Management program, review            the protection of critical
significant cost cuts and become           TVA’s strategic plan, seek input           infrastructure and privacy
more efficient in order to combat          from TVA management and other              information; (4) improving the
eroding revenue and increased              stakeholders, and use information          effectiveness of risk mitigation
costs to modernize its fleet.              on risks gathered during our               activities on areas of high risk;
                                           reviews in the previous year. Our          and (5) serving as a deterrent to
                                           investigative team also performs           misconduct and fraud.
                                           investigations into areas of high
                                           risk which are generated from audit        Even without a monetary value
                                           referrals, OIG-developed sources,          attached, these reviews provide
                                           TVA management, and tips from              information to help TVA operate in
                                           our fraud, waste, and abuse hotline,       the most efficient manner and keep
                                           called the EmPowerline. Below we           TVA from incurring a liability from
                                           will discuss, from our perspective,        risks that are not properly mitigated.
                                           how the OIG can and does make a
                                           difference.                                Saving Money
The OIG focuses every day on                                                          To support its operations, TVA
finding ways for TVA to recover            Over the past five years, our reviews      spends about $2.5 billion annually
funds, save money, reduce risk,            have helped TVA save and recover           on labor and services, as well as
and improve operations. Simply             money. In addition, a significant          materials and equipment contracts
put, our mission is to “Make               number of reviews identified areas         and purchase orders, and




                                                         Semiannual report April 1, 2013 – September 30, 2013                  7
    $1.5 billion a year under coal and           costs, funds to be put to better      contracts. These reviews allow
    coal transportation contracts.               use, recoveries, savings, fines,      TVA management to understand
    We provide oversight of TVA’s                and penalties. Our reviews also       where further negotiation could
    contracting activities through the           identified more than $.5 million in   reduce costs. In FY 2013, the
    conduct of preaward, postaward               other monetary losses or waste.       OIG conducted more preaward
    (compliance), operational, and               The box below shows the monetary      audits than in any other FY since its
    contracting process reviews. Over            results of our reviews for the past   inception and identified more than
    the years, our audit group that              five years. The monetary impact       $36.5 million in funds that could
    focuses on this area has gained              from our reviews is primarily a       be put to better use. Over the last
    the respect of TVA management                result of our contract compliance     five years, the OIG has identified
    for their expertise and has a strong         audits, contract preaward reviews,    more than $157 million in funds that
    working relationship with TVA                and investigations; however, other    could be put to better use.
    procurement.                                 operational reviews can also have
                                                 monetary impact.                      Contract Compliance Audits—The
    As TVA looks to make significant                                                   OIG routinely reviews contracts
    cost cuts to offset eroding revenue          Preaward Audits—TVA                   in place to ensure contractors are
    and to keep rates as low as feasible,        management often requests             billing in accordance with contract
    the OIG continues to work hard               assistance from the OIG in            terms. We use risk-based analysis
    to find ways to help TVA save and            determining if contractor cost        to determine which contracts to
    recover money. In FY 2013, our               proposals are fairly stated prior     review. In these reviews, we identify
    reviews resulted in more than                to the award of large contracts       overbillings or improper payments
    $43.5 million in questioned                  or extensions on current              so that TVA can recover the funds.
                                                                                       In FY 2013, more than $4 million
                                                                                       was questioned and, in the last
                  STATISTICAL HIGHLIGHTS                                               five years, we questioned more
                      October 1, 2008 – September 30, 2013
                                                                                       than $31 million. We also identify
      Audit Reports Issued                              284                            improvements to the contracting
      Evaluations Completed                             68                             process to help TVA become more
      Questioned Costs                                  $38,831,439                    efficient and effective. In FY 2011
                                                                                       and FY 2012, at the request of TVA
      Disallowed Costs                                  $27,414,171
                                                                                       management, the OIG provided
      Funds Recovered                                   $15,590,888
                                                                                       training to TVA procurement
      Funds to be Put to Better Use                     $157,303,493                   officials on the trends found in
      Funds Realized by TVA                             $26,873,204                    contract reviews which could help
                                                                                       contract managers better manage
      Investigations Opened                             2,061
                                                                                       their contracts.
      Investigations Closed                             2,000

      Recoveries/Savings/Fines/Penalties                $29,562,874

      Other Monetary Loss                               $506,795,827

      Criminal Actions                                  78

      Administrative Actions (No. of Subjects)          126




8         Semiannual report April 1, 2013 – September 30, 2013
Investigations—We also help TVA           penalties, and fees amounting to          Increase Operational
recover funds and reduce future           more than $1.4 million for a total of     Efficiency and
costs through our investigative work.     more than $29.4 million.                  Effectiveness
For example, in the past                                                            As mentioned previously, the
five years, we have recovered             Other Reviews—We have also                majority of our reviews do not
$11.31 million in civil recoveries        identified savings to TVA in              have monetary savings tied to
from cases involving a TVA                other contract-related reviews            them; however, these reviews have
contractor, vendor, and medical           or in our distributor reviews. For        identified numerous opportunities
provider, respectively: Stone &           example, in 2012, an error by one         to improve operational efficiency
Webster Construction, Inc. (SWCI),        distributor resulted in a $3.6 million    and effectiveness. In addition, the
in the amount of $6.2 million;            underpayment to TVA which was later       OIG and TVA jointly perform fraud
Signal Industrial Products, Inc.          credited back to TVA as a result of our   risk assessments and culture risk
(Signal), in the amount of $750,000;      work. In addition, in 2011, our office    assessments so identified risks can
and Apex Medical Group, P.C.,             conducted an operational review of        be proactively mitigated. More
in the amount of $4.36 million.           TVA’s demurrage costs to determine        efficient and effective functions
Another example is our work in            why they were occurring and how           and appropriately mitigated risks
workers’ compensation which               they could be prevented. Demurrage        are integral to TVA performing its
reduces future costs as well as results   is the fee charged by barge and rail      mission in the most cost-effective
in reimbursement of overpayments          companies for delays in the loading       manner possible.
to TVA. In the past five years,           or unloading of coal from company-
our investigations overall have           owned assets. In response to our          Within the OIG, we have groups
resulted in more than $18 million in      review, TVA received a $376,667           providing oversight of governance
recoveries to TVA and other entities;     credit for origin demurrage and will      and regulatory activities, IT
projected costs avoided by TVA            receive approximately $1 million in       programs and security, and
of nearly $10 million; and fines,         credits in upcoming years.                operational areas. Highlighted



                                                        Semiannual report April 1, 2013 – September 30, 2013              9
     below are some of the reviews           (municipalities and                    TVA assumed responsibility
     that help TVA increase operational      cooperatives) that resell TVA          for performing reviews of the
     efficiency and effectiveness.           power to consumers across the          distributor’s compliance with
     	                                       Tennessee Valley. TVA’s Board          the power contract.
     Improving Governance and                is responsible for regulating
     Regulatory Activities—Our               its distributors. In response       V	 Direct Load Control – In the
     reviews in this area have focused       to our reviews of TVA’s role as        1970s, TVA established the
     on how well TVA regulates the           a regulator, TVA clarified its         Direct Load Control program
     distributors of its power and other     role and made improvements             which allowed TVA to shift
     programs TVA offers distributors.       in the oversight of the                load from on-peak/high-priced
     These address not only potential        distributors. In addition, the         periods to off-peak/low-priced
     reputational risks to TVA if            OIG began performing reviews           periods for a participating
     regulatory responsibilities are not     of distributors to provide             distributor. In exchange, the
     carried out appropriately, but          assurance on compliance with           distributor received credits on
     also the risks that TVA may not         the distributor’s power contract       their power bill. A 2013 review
     be operating these programs in          and identified improvement             identified significant issues with
     the most efficient manner. Some         opportunities for the distributor      the equipment and monitoring
     examples include:                       and TVA, including errors              of the program. For example,
                                             that impacted the amount of            in certain cases inoperable
     V	 Regulating Distributors –            revenue TVA received from              equipment made it impossible
         TVA has 155 distributors            some distributors. In 2011,            for TVA to receive the peak




10         Semiannual report April 1, 2013 – September 30, 2013
    demand reduction it was            TVA is addressing known risks in            that metrics on scheduled
    paying for through the credits.    specific areas. The results of the          maintenance were not reliable
    TVA is working to improve or       reviews help TVA make needed                and, in many cases, scheduled
    replace this program.              improvements that reduce the risk           maintenance was not being
                                       that a bad event or financial loss          done. Further, we found
Protection of Critical                 will occur. Some examples include           that the lack of maintenance
Infrastructure and Privacy             reviews of:                                 contributed to poor system
Information—As the largest public                                                  health in many instances. The
power producer in the country          V	 TVA’s management of master               lack of proper maintenance
and a government corporation,             keys in two large TVA                    could increase the risk of
TVA is a part of the nation’s             organizations – These 2013               equipment failures and
critical infrastructure. Like other       reports made recommendations             outages.
companies, TVA faces evolving             that improved physical security
risks to its cyber assets and the         by addressing significant             V	 The risk of a craft labor
information it maintains, especially      weaknesses in the management             shortage – We noted in
PII. In this type of environment,         and control over the master              2013 that TVA was lacking in
collaboration and information             keys that grant access to certain        strategies related to the risk
sharing is integral to finding cost       critical assets and infrastructure.      of a shrinking labor pool. A
effective solutions to reduce TVA’s                                                shortage of craft labor could
risks.                                 V	 Succession planning – This               have detrimental impact
                                          2013 review found that TVA               on TVA’s ability to perform
Over the years, we have conducted         had made significant progress            operations, maintenance,
many reviews of TVA in the cyber          in this regard, but opportunities        modifications and construction
security area. These reviews              for improvement remain. We               work. In response to our
may focus on security of specific         recently initiated a related             report, TVA worked with the
technical areas or systems,               review of the effectiveness of           operating groups and the
protection of PII, the effectiveness      “knowledge transfer” activities          unions to gain acceptance of
of the IT security group and the          when key employees leave.                a standardized task evaluation
IT organization as a whole, or be         These are areas of critical              program model and procured
a mandated review such as those           importance as TVA seeks to               services of an outside labor
required by the FISMA. These              “right size” and cut costs.              consultant to help assess and
reviews provide TVA with specific         Having the right people,                 monitor, on a quarterly basis,
information on where controls need        with the right knowledge, in             the supply and demand for
to be strengthened to lessen TVA’s        place in a smaller and leaner            craft labor. This allows TVA to
risks and provide recommendations         TVA will be critical to the              proactively anticipate shortages
to improve controls or increase           company achieving operational            and make adjustments as
the effectiveness of a group or           excellence while reducing                needed to ensure staffing is
program.                                  costs.                                   available. 


Risk Mitigation and Risk-Based         V	 Preventive maintenance in             V	 TVA’s building and
Reviews—These reviews provide             TVA’s Nuclear Power Group –              infrastructure failure risks – In
an independent look at how well           In a 2013 review, we found               2013, we identified an elevated



                                                     Semiannual report April 1, 2013 – September 30, 2013              11
         risk exposure because the               important to reducing TVA’s              area. The assessments which
         program had been consistently           exposure to possible financial           are performed in conjunction
         underfunded and identified              and operational losses.                  with TVA business organizations
         risks excluded underutilized                                                     identify (1) types of fraud that
         properties, which posed             Deterrent to Misconduct and                  can occur, (2) the likelihood and
         additional risk of liability from   Fraud—Another important way                  significance of fraud occurring,
         potential contamination or          our office helps TVA is to provide           (3) controls in place to prevent
         compromises to public safety.       deterrence to employee misconduct            fraud, and (4) remediation
         This resulted in additional         and potential fraud, including third     	   needed to improve fraud
         focus on those properties and       party fraud by contractors. One              prevention controls. While
         improvements to the system          deterrent can be the prosecution             the primary purpose of the
         which will provide better           of those that defraud TVA. In the            assessments is to reduce
         management of TVA’s portfolio       past five years, our investigations          risks for TVA, the collateral
         of properties.                      have resulted in 35 indictments,             benefit is the trust that is built
                                             37 convictions, and 6 pre-trial              between the OIG staff and
     V	 Cost and schedule                    diversions. Other activities that also       TVA employees. Since the
     	performance on the WBN                 help deter or identify misconduct or         program inception, our office
     	   Unit 2 construction project –       fraud earlier include:                       has performed more than
         This 2012 review identified                                                      30 assessments.
         serious weaknesses in               V	 Debarments – In 2010,
         oversight of the project that           TVA and the OIG worked               V	 Fraud Awareness Briefings –
         were hampering construction             collaboratively to develop a             Our agents conduct briefings
         performance. The OIG                    suspension and debarment                 of individuals and groups to
         recommendations resulted in             process for contractors that             educate them on what type
         better estimates of cost and            defraud TVA.  That same                  of fraud schemes they may
         schedule and better project             year, Holtec International, Inc.         encounter, what to look for, and
         oversight. This work was                (Holtec), a dry cask storage             how to report it. An increased
         significant because it identified       system supplier for TVA                  awareness can lead to earlier
         serious problems much earlier           nuclear plants, became the               reporting of potential fraud.
         than they would have otherwise          first contractor to be debarred
         been discovered, thereby                in TVA history. Holtec’s             V	 EmPowerline – Our hotline
         allowing the company to save            debarment lasted sixty days.             provides a mechanism for
         money by getting the project            Also, Holtec agreed to pay a             people to anonymously
         on track and addressing the             $2 million administrative fee            report misconduct and fraud
         construction delays identified.         and submit to a year-long                to the OIG. Over the past
                                                 monitoring program for its               five years, we have received
     V	 TVA’s counterparty credit                operations.                              1,429 reports. Addressing
         risk – We found the process                                                      the information received can
         lacked a consistent, risk-based     V	 Fraud Risk Assessments – In               lead to an investigation, audit,
         approach to managing credit             2004, the OIG kicked off a TVA-          or management action which
         and performance risk. Proper            wide initiative to help groups           results in saving TVA money or
         management of this risk is              identify fraud risks for their           identifying misconduct or fraud.



12         Semiannual report April 1, 2013 – September 30, 2013
Conclusion                          as constructive feedback on the       differing opinions on findings
Challenges are nothing new to       efficiency and effectiveness of its   and recommendations is mutually
TVA. TVA personnel have risen       programs. Additionally, while the     beneficial to both parties. Healthy
to the occasion many times in       dynamics can be tricky between the    dialogue on the challenges and
TVA’s history to overcome the       “watchdog” and the agency, we         potential solutions between TVA
challenges at hand. The TVA         have learned over the years that a    and the OIG is integral to solving
Board, management, and OIG          healthy working relationship where    the challenges of today and
personnel have a mutual purpose—    agency personnel feel comfortable     tomorrow and, ultimately, in making
making TVA better. The OIG is       in asking us to review an area or     TVA better.
committed to providing TVA with     provide training on trends we see
information regarding ways it can   in a program, and where TVA and
save and recover money as well      OIG personnel respectfully discuss




                                                 Semiannual report April 1, 2013 – September 30, 2013           13
                            NoteWorthy
                           Undertakings




14   Semiannual report April 1, 2013 – September 30, 2013
  Noteworthy Undertakings
  This semiannual period, our office had two Noteworthy Undertakings to report. Two OIG teams received Council of
  the Inspectors General on Integrity and Efficiency (CIGIE) awards for a joint investigation and inspection of a Watts Bar
  Unit 2 construction project, as well as for an investigation leading to the conviction of a contractor company’s nuclear
  plant safety manager. Additionally, OIG personnel and representatives from other law enforcement agencies visited
  WBN Plant as part of a tour hosted by TVA.




OIG Teams Receive                                                                   An investigation leading to
Two CIGIE Awards                                                                    the conviction of a contractor
for Excellence                                                                      company’s nuclear plant safety
                                                                                    manager who falsified injury rates
The CIGIE held a ceremony in
                                          to completion was extended                at TVA nuclear plants to collect
Washington, D.C., to announce the
                                          three years, with an estimated            more than $2.5 million in safety
winners of its annual Awards for
                                          completion date between                   bonuses
Excellence. Two OIG teams won
                                          September and December 2015.              As previously reported, the TVA
awards for:
                                          The OIG inspection and                    OIG Investigations recently
                                          investigation were integral in            completed the criminal jury trial
A joint investigation and
                                          identifying that the project was          of a former nuclear plant safety
inspection identifying and
                                          significantly over budget and             manager for TVA contractor
notifying TVA that the WBN
                                          behind schedule. This allowed             SWCI, later named the Shaw
Unit 2 construction project was
                                          TVA to take corrective actions            Group. SWCI had a contract
behind schedule and over budget
                                          and properly report financial             with TVA to provide maintenance
In August 2007, the TVA Board
                                          information to Congress, bond             and modifications to three TVA
approved the completion of
                                          holders, and the general public.          nuclear facilities and to provide
WBN Unit 2, the only new
                                          The TVA OIG worked as a team              construction for the Browns Ferry
nuclear generating plant under
                                          to provide a complete and                 Nuclear Plant Unit 1 reactor restart.
construction in the country, at a
                                          thorough review of the project that       The plant safety manager was
cost of $2.5 billion and schedule for
                                          previously had been erroneously           charged with and convicted of
completion of 60 months. The TVA
                                          reported. As a result, TVA replaced       eight counts of major fraud as a
OIG, through a joint inspection
                                          senior management on the project,         result of a criminal investigation
and investigation, determined
                                          performed a comprehensive                 following a previously obtained
TVA’s WBN construction was
                                          review of the project, and publicly       civil fraud false claims settlement
significantly behind schedule
                                          reported the revised schedule and         from SWCI in a parallel proceeding
and grossly over budget, despite
                                          budget numbers.                           in January 2007.
information released by TVA senior
management to the contrary.
                                          TVA OIG employees Melissa                 The manager, age 55, of Metairie,
After the OIG provided pertinent
                                          Conforti, Lisa Hammer, Greg               Louisiana, was sentenced to serve
information to TVA, both the
                                          Stinson, Nancy Holloway,                  78 months in prison followed by
budget and schedule were revised
                                          Paul Houston, Angela Blackmon,            two years of supervised release.
considerably to a projected cost
                                          and Kaylyn Moore received the             He was convicted of providing
of completion between $4 billion
                                          WBN Unit 2 award.                         false information about injuries
and $4.5 billion, and the time




                                                       Semiannual report April 1, 2013 – September 30, 2013                  15
     following a jury trial in November
     2012, after being charged by a
     federal grand jury with eight counts
     of major fraud against TVA. The
     manager under-reported more than
     80 injuries generating false injury
     rates that were used by the Shaw
     Group to collect more than
     $2.5 million in safety bonuses from
     TVA. As part of a civil agreement      General Richard Moore (left photo,       Mike Skaggs (right photo, third
     filed with the U.S. in 2008, the       first from the left); Deputy Inspector   from the left) and WBN Site Vice
     Shaw Group paid back twice the         General Ben Wagner; Assistant            President Tim Cleary (left photo,
     amount of the unearned safety          Inspector General for Investigations     second from the left) and included
     bonuses.                               Jack Brennan; Special Agents in          representatives from the FBI; the
                                            Charge Paul Houston and Nancy            Department of Homeland Security;
     TVA OIG employees Beth Thomas,         Holloway; Evaluations Director           and the U.S. Attorney’s office,
     J.D. Shelton, Milea Bagwell, and       Greg Stinson; Senior Auditor             including the U.S. Attorney for East
     Curt Hudson received this award.       Melissa Conforti; Senior Special         Tennessee William Killian. These
                                            Agents J.D. Shelton, Beth Thomas,        organizations, along with the TVA
     TVA OIG Participates in                and Michelle Stafford attended.          OIG, have been instrumental in
     WBN Plant Tour                                                                  investigating and prosecuting
     On May 15, our office participated     The tour was hosted by Senior Vice       illegal activities at TVA facilities.
     in a tour of WBN. Inspector            President of Nuclear Construction




16         Semiannual report April 1, 2013 – September 30, 2013
Watts Bar Nuclear Plant




                          Semiannual report April 1, 2013 – September 30, 2013   17
                                  Executive
                                  Overview




18   Semiannual report April 1, 2013 – September 30, 2013
  Executive Overview
  In this semiannual report, our theme is reflective of our mission to make TVA better. We continue to focus on TVA’s
  challenges in bolstering and maintaining its financial health at a time when TVA is faced with shrinking revenue,
  growing expenses, and the expectation to live within its means to keep rates low and jobs plentiful through its
  economic development program in the Tennessee Valley. Our work featured here exemplifies what we do every day
  to support TVA in achieving its mission, minimizing risk, and planning for a better tomorrow by focusing on the right
  priorities to help keep TVA performing optimally today.




AUDITS                                   Our audits identified $36.5 million       (1) vehicle allowance and
During this reporting period, the        of potential savings opportunities        assigned vehicle programs, which
audit organization completed             for TVA to negotiate.                     identified needed improvements
30 audits, reviews, and agreed-                                                    in the administration of both the
upon procedures. In addition,            We also completed four                    vehicle allowance and assigned
Audits completed five other              compliance audits of contracts with       vehicle programs; (2) Distributor
audit-related projects. Our work         expenditures totaling $42.6 million       Compliance assessments where we
identified approximately $2.9 million    related to (1) loading coal               noted several positive attributes
in questioned costs, helped TVA          combustion by-products from the           in Distributor Compliance’s
recover almost $2.5 million, and         ash spill at TVA’s Kingston Fossil        planning and performance of
identified more than $36.5 million       Plant onto rail cars and/or trucks for    assessments as well as areas where
in funds to be put to better use.        off-site disposal; (2) hydroblasting      improvements were needed; and
This work also identified several        services at TVA locations;                (3) Valley Investment Initiative (VII)
opportunities for TVA to improve its     (3) designing, furnishing, and            program, which found Economic
programs and operations.                 installing hydrated lime injection        Development (ED) personnel
                                         systems for SO mitigation at various
                                                        3
                                                                                   complied with TVA policies and
Contract Audits                          TVA fossil plants; and (4) savings        procedures for oversight of
To support TVA management in             guaranteed to TVA by a contractor         program operations; however, TVA
negotiating procurement actions,         for work management improvement           oversight of the VII program as a
we completed 15 preaward reviews         services. These audits identified         whole could be improved.
of cost proposals submitted by           potential overbillings of $2.9 million.
companies to provide (1) TVA             The Contract Audits section begins        In addition to our audit work, we
valley-wide engineering services;        on page 27 of this report.                completed two quarterly reviews of
(2) hydro modernization and unit                                                   the external auditor’s compliance
rehabilitation services; (3) refueling   Corporate Governance                      with generally accepted
services, steam generator services,      and Finance Audits                        Government Auditing Standards,
and outage optimization services         With a focus on TVA’s regulatory          where our reviews noted no
at TVA’s nuclear operating units;        activities, compliance with               instances of noncompliance.
and (4) a flexible membrane liner        applicable laws and regulations           The Corporate Governance and
system and cap soil for the dredge       and financial reporting, we               Finance Audits section begins on
cell closure at Kingston Fossil Plant.   completed audits of TVA’s                 page 28 of this report.




                                                       Semiannual report April 1, 2013 – September 30, 2013                 19
                                           program. In the three audits,                Due to the sensitive nature of
                                           we identified improvements that              one of the reviews, no further
                                           could be made in BLN Plant’s risk            discussion is included. The team
                                           management program, the risk                 completed a review of the capital
                                           of significant equipment failures            project approval process which
                                           in TVA’s transmission system, and            identified areas for improvement
                                           WBN Unit 2’s commodity tracking              related to the timeliness of Nuclear
                                           database. Finally, in response to            Power Group (NPG) project
                                           a congressional request from the             approvals and the forecasting of
                                           Bicameral Task Force on Climate              project schedules. Additionally,
     IT Audits                             Change, the team identified                  we completed a follow-up review
     During this semiannual period, we     the existing requirements and                of TVA’s succession planning and
     completed four audits in the IT       directives relating to climate               found TVA has made improvements
     environment pertaining to TVA’s       change in legislation, regulations,          to succession planning; however,
     (1) controls over modem access        executive orders, and other                  areas for improvement still exist.
     to certain transmission assets;       directives that apply to TVA. The            Evaluations also assessed nuclear
     (2) application controls for TVA’s    Operational Audits section begins            plant preventive maintenance
     enterprise asset management           on page 32 of this report.                   and the WBN Unit 2 quality
     software; (3) controls over PII                                                    assurance program. The review of
     stored on TVA desktop and laptop      EVALUATIONS                                  nuclear preventive maintenance
     computers; and (4) IT security and    During this semiannual period,               showed reported metrics may
     privacy practices as required by      Evaluations completed six reviews.           not be accurate and that late and
     the FISMA. We identified areas for
     improvement in all four reviews and                   STATISTICAL HIGHLIGHTS
     noted that FISMA controls have                             April 1, 2013 – September 30, 2013
     improved. The IT Audits section         Audit Reports Issued                                   30
     begins on page 30 of this report.       Evaluations Completed                                  6

                                             Questioned Costs                                       $2,915,673
     Operational Audits
     Operational Audits completed            Disallowed Costs                                       $646,656

     one attestation engagement,             Funds Recovered                                        $2,447,422
     three audits, and a congressional       Funds to be Put to Better Use                          $36,521,892
     request. In the attestation
                                             Funds Realized by TVA                                  $2,478,759
     engagement, we applied certain
     procedures determined by the            Investigations Opened                                  173

     Center for Resource Solutions           Investigations Closed                                  158
     (CRS) to TVA’s Green Pricing            Recoveries/Savings/Fines/Penalties                     $2,054,100
     Accreditation Program to
                                             Other Monetary Loss                                    $519,264
     provide assurance that TVA was
                                             Criminal Actions                                       2
     in compliance with the annual
     reporting requirements of the           Administrative Actions (No. of Subjects)               18




20         Semiannual report April 1, 2013 – September 30, 2013
deferred preventive maintenance        preparedness and determined that     conspiracy to defraud the U.S. 
was negatively affecting system        although progress has been made,     Five people were sentenced
health. The review of WBN Unit 2       improvements could have been         on federal charges including
quality assurance found Nuclear        implemented more effectively.        major fraud, wire/mail fraud, and
Construction Quality Assurance         The Evaluations section begins on    workers’ compensation fraud. 
(QA) has generally been effective      page 37 of this report.              Our investigations resulted in
in its oversight of the construction                                        restitution, fees, and projected
project; however, a breakdown in       INVESTIGATIONS                       savings exceeding $2 million.  We
the QA program resulted in a lack      This reporting period, our           opened 173 cases and closed 158.
of oversight in commercial grade       investigations resulted in two       The Investigations section begins
dedication. Lastly, Evaluations        individuals convicted in federal     on page 43 of this report.
completed a review of Coal             court on charges including theft
and Gas Operations emergency           of government property and




                                                   Semiannual report April 1, 2013 – September 30, 2013         21
                                          TVA OIG
                                       ORGANIZATION
                                               as of September 30, 2013




                         Charles A. Kandt                      Richard W. Moore
                         Counselor to the IG                    Inspector General


                                                                 Ben R. Wagner
                                                                 Deputy Inspector
                                                                    General


     W. David Winstead     Jill M. Matthews                              Robert E. Martin                                John (Jack) Brennan
                           Assistant Inspector                                                                            Assistant Inspector
       Legal Counsel                                       Assistant Inspector General, Audits & Evaluations
                         General, Administration                                                                         General, Investigations


                              Terri Beatty         Lisa H. Hammer        David P. Wheeler
                                                                           Deputy Assistant       Greg R. Stinson         Nancy J. Holloway
                         Manager, Organizational       Director,
                                                                          Inspector General,     Director, Evaluations   Special Agent In Charge
                                Health             Operational Audits
                                                                                Audits


                           Kathy H. Kirkham                                                                                Paul B. Houston
                                                                          Phyllis R. Bryan
                            Manager, Human
                                                                          Director, IT Audits                            Special Agent In Charge
                              Resources


                                                                         Curtis C. Hudson
                                                                              Director,
                                                                           Contract Audits


                                                                        Rick C. Underwood
                                                                         Director, Corporate
                                                                           Governance &
                                                                           Finance Audits




22        Semiannual report April 1, 2013 – September 30, 2013
  ORGANIZATION
  Since 1985, the OIG has worked to help TVA become better which is the OIG mission. Through our audits,
  evaluations, and investigations, we provide TVA management, the TVA Board, and Congress with an independent
  look at the economy, efficiency, and effectiveness of TVA programs and help prevent and detect fraud, waste, and
  abuse. Over the years, the OIG has saved TVA millions and recommended numerous program improvements. We
  credit our success to the efforts of our hardworking and talented staff and the professional responsiveness of TVA
  management to our recommendations.




TVA OIG Office Locations                 offices in Nashville, Tennessee, and     AUDITS AND
The OIG has a work philosophy of         Huntsville, Alabama. We also have        EVALUATIONS
being in the right place at the right    office locations at WBN Plant in
time to do the best work possible.       Spring City, Tennessee; BLN Plant in     The Audits and Evaluations
We support that philosophy by            Hollywood, Alabama; and Sequoyah         group performs a wide variety of
encouraging our OIG employees            Nuclear Plant in Soddy-Daisy,            engagements designed to promote
to work where they can be most           Tennessee. Staff work in these           positive change and provide
effective whether that is in one of      locations as needed.                     assurance to TVA stakeholders.
our physical offices or whether it is                                             Based upon the results of
                                         As of September 30, 2013, the
one of our virtual offices supported                                              these engagements, the Audits
                                         OIG had a total staff of 104. The
by Web cameras that allow our                                                     and Evaluations group makes
                                         number of personnel located at
employees to telework from home                                                   recommendations to enhance the
                                         each staffed office is: Knoxville-82,
or while traveling. We measure                                                    effectiveness and efficiency of TVA
                                         Chattanooga-17, Nashville-1, and
productivity, not where the work is                                               programs and operations.
                                         Huntsville-4.
done.
                                                                                  The group uses an impact- and
The OIG has strategically located
                                         administration                           risk-based approach to develop an
its offices near all major TVA offices                                            annual work plan. In developing
                                         The Administration team works
throughout the Tennessee Valley.                                                  the plan, the OIG considers TVA’s
                                         closely with the IG, Deputy IG,
We are headquartered opposite                                                     strategic plans, major management
                                         and Assistant IGs to address the
TVA’s corporate offices in the East                                               challenges, TVA’s enterprise risk
                                         day-to-day operations of the
Tower, overlooking downtown                                                       management process, and other
                                         OIG and to develop policies and
Knoxville.                                                                        input from TVA management. This
                                         procedures designed to drive and
                                                                                  planning model also evaluates
                                         enhance productivity in achieving
The OIG has a field office in the                                                 each potential engagement from
                                         office goals. Responsibilities
Edney Building in Chattanooga,                                                    the standpoint of materiality (i.e.,
                                         include personnel administration,
Tennessee, where the Evaluations                                                  costs or value of assets), potential
                                         budget and financial management,
unit, members of the Corporate                                                    impact, sensitivity (including
                                         purchasing and contract services,
Governance and Finance team,                                                      public and congressional interest),
                                         facilities coordination, conference
and several Special Agents are                                                    and the likelihood it will result in
                                         planning, communications
located, as well as staffed field                                                 recommendations for cost savings
                                         facilitation, and IT support.



                                                         Semiannual report April 1, 2013 – September 30, 2013            23
     or process improvements. The                               performs reviews of TVA                          associated with TVA systems.
     result of the OIG Audits and                               contracting processes and                        This group also performs
     Evaluations planning process is a                          provides claims assistance as                    operational reviews of the
     focus on those issues of highest                           well as litigation support.                      effectiveness of IT-related
     impact and risk to TVA.                                                                                     functions.
                                                        V	 Corporate Governance and
     The Audits team, primarily                                 Finance Audits has lead                      V	 Operational Audits focuses
     based in Knoxville, generates                              responsibility for oversight of                  on risk and impact-driven
     and oversees comprehensive                                 TVA’s (1) financial statement                    operational audit work. The
     financial and performance audits                           audit and related services                       team performs audits of
     of TVA programs and operations,                            performed by TVA’s external                      operational effectiveness
     providing an inclusive picture of                          auditor and (2) regulatory                       and efficiency, as well as TVA
     TVA’s overall fiscal and operational                       activities. This group also                      compliance with laws and
     health. This team is made up                               conducts operational reviews                     regulations.
     of four departments—Contract                               to assess the results as well as
     Audits, Corporate Governance                               the economy and efficiency of                The Evaluations team seeks to
     and Finance Audits, IT Audits, and                         TVA’s financial programs.                    ensure that program objectives
     Operational Audits.                                                                                     and operational functions are
                                                        V	 IT Audits has lead responsibility                 achieved effectively and efficiently.
     V	 Contract Audits has lead                                for audits relating to                       It performs both comprehensive
        responsibility for contract                             the security of TVA’s IT                     reviews and more limited scope
        compliance and preaward                                 infrastructure, application                  policy and program reviews. In
        audits. In addition, this group                         controls, and general controls               accordance with the Quality




                               Types of Audit & Evaluation Issues

                                Corporate Governance and                                   Operational Audits
                                     Finance Audits                                •	 Operational Inefficiency
                             •	 Internal Control Deficiencies                      •	 Not Achieving Intended Results
                             •	 Program Inefficiencies/Ineffectiveness             •	 Inferior Performance
                             •	 Policy Noncompliance                               •	 Legal/Regulatory Noncompliance
                             •	 Fraud                                              •	 Fraud



                       IT Audits                                         Evaluations                                 Contract Audits
          •	 Unauthorized Access                            •	 Internal Control Deficiencies                 •	 Inflated Proposals
          •	 Inadequate Controls                            •	 Operational Inefficiency                      •	 Contract Overpayments
          •	 Lack of Data Integrity                         •	 Policy Noncompliance                          •	 Inferior Performance
          •	 Fraud                                          •	 Fraud                                         •	 Fraud




24         Semiannual report April 1, 2013 – September 30, 2013
                      Major Categories of Investigations
                                                                               Theft of Government
                                     Contract Fraud
                                                                               Property and Services
                            Defrauding TVA through its procurement
                              of goods and services including fraud            Theft of TVA property and schemes
                             schemes such as misrepresenting costs,            to defraud . . . designed to deprive
                            overbilling charges, product substitution,           individuals, the people, or the
                             and falsification of work certifications.        government of intangible rights, such
                                                                           as the right to have public officials perform
                                                                                       their duties honestly.


       Environmental Crime                                Health Care Fraud                           Illegal Hacking Into TVA
    Violations of environmental criminal law        Intentional misrepresentation of health               Computer Systems
    pertaining to the Tennessee River system        care services, expenses, billings, needs,              Accessing a TVA computer
   and its watershed, along with any violations     or coverage that results in unauthorized                without authorization or
        relating to TVA land and facilities.              payments or other benefits.                     exceeding authorized access.




            Workers’                                    Employee Misconduct                                   Special Projects
        Compensation Fraud                                Misuse of TVA furnished                     Management requests, data mining
       Employee fraud, medical fraud,               equipment, travel voucher fraud, and a           and predictive analysis, congressional
     premium fraud, and employer fraud,             multitude of miscellaneous matters of             and TVA Board requests, and fraud
    most often a false claim of disability to       abuse, conflict of interest, and alleged                   risk assessments.
               receive benefits.                        violations of code of conduct.




Standards for Inspection and                      INVESTIGATIONS                                      interagency law enforcement
Evaluation, the objectives of the                                                                     task forces on terrorism, the
unit include providing a source of                The Investigations team uncovers                    environment, health care, and public
factual and analytical information,               activity related to fraud, waste,                   corruption as well as securities
monitoring compliance, measuring                  and abuse in TVA programs and                       fraud. The graphic above shows the
performance, assessing the                        operations. This team performs its                  major categories of investigations.
efficiency and effectiveness of                   investigations in accordance with the
operations, and conducting                        Quality Standards for Investigations.               LEGAL
inquiries into allegations of                     The Special Agents maintain liaisons
fraud, waste, abuse, and                          with federal and state prosecutors                  The OIG Legal Counsel team
mismanagement. Audit and                          and notify the U.S. Department of                   monitors existing and proposed
evaluation issues vary depending                  Justice (DOJ) whenever the OIG                      legislation and regulations that
on the objectives of the project.                 has reason to believe there has                     relate to the mandate, operations,
The graphic on page 24 shows                      been a violation of federal criminal                and programs of the OIG and TVA.
some representative examples of                   law. The special agents partner                     Additionally, this team provides
issues our audit and evaluation                   with other investigative agencies                   legal advice as needed for
projects are commonly designed                    and organizations on special                        administrative, audit, evaluation,
to identify.                                      projects and assignments, including                 and investigative projects.




                                                                   Semiannual report April 1, 2013 – September 30, 2013                       25
                        REPRESENTATIVE
                            AUDITS




                                                            Kingston Fossil Plant




26   Semiannual report April 1, 2013 – September 30, 2013
  SUMMARY OF REPRESENTATIVE AUDITS
  During this reporting period, the TVA OIG completed 30 audits, reviews, and agreed-upon procedures.  Our work
  identified approximately $2.9 million in questioned costs, helped TVA recover almost $2.5 million, and identified
  more than $36.5 million in funds to be put to better use.  This work also identified numerous opportunities for TVA
  to improve its programs and operations. Below is a discussion of reports issued this period in the following areas: 
  (1) contract compliance audits and preaward reviews, (2) corporate governance and finance audits, (3) IT audits, and
  (4) operational audits.




Contract Audits                          of contracts with expenditures               the contractor overbilled TVA
                                         totaling $42.6 million and                   $397,519 as follows.
Preaward Contract                        identified potential overbillings
Reviews                                  of $2.9 million. Highlights of our            n   	 $323,654 was overbilled for
To support TVA management in             completed compliance audits                         equipment and labor costs,
negotiating procurement actions,         follow.                                             including (1) $212,443 for
we completed 15 preaward reviews                                                             ineligible equipment and
of cost proposals submitted by           V	 We audited $19.3 million in                      labor costs; (2) $96,975
companies proposing to provide               costs billed by a contractor                    for excessive crew costs;
(1) TVA valley-wide engineering              for loading coal combustion                     and (3) $14,236 in fuel
services; (2) hydro modernization            by-products from the ash spill                  surcharges, per diem, and
and unit rehabilitation services;            at the Kingston Fossil Plant                    labor escalation associated
(3) refueling services, steam                onto rail cars and/or trucks                    with the ineligible
generator services, and outage               for off-site disposal. We                       equipment and labor
optimization services at TVA’s               determined the contractor                       costs that were billed.
nuclear operating units; and                 overbilled TVA $2,187,410
(4) a flexible membrane liner                which included (1) $2,123,694             n   	 $73,865 of ineligible
system and cap soil for the dredge           in overbilled and unsupported                   mobilization/demobilization
cell closure at TVA’s Kingston               standby costs (charges for time           	     costs were billed, including
Fossil Plant. Our audits identified          periods when equipment and/                     (1) $64,307 in setup and
$36.5 million of potential savings           or personnel were idle and no                   breakdown costs not
for TVA to negotiate. The savings            other productive work could                     provided for by
opportunities were primarily                 be performed) and (2) $63,716                   the contract and
related to overstated indirect cost          in overbilled tonnage costs                     (2) $9,558 in mobilization/
recovery rates and excessive profit          due to excessive tons of coal                   demobilization costs billed
rates.                                       combustion by-products billed.                  for ineligible equipment.


Contract Compliance                      V	 We audited $2.3 million in            Additionally, the contractor was
Reviews                                      costs billed by a contractor for     overpaid $38,066 because certain
During this semiannual period, we            hydroblasting services at TVA        invoices were paid twice by TVA.
completed four compliance audits             locations. We determined




                                                      Semiannual report April 1, 2013 – September 30, 2013                  27
     V	 We audited $4.8 million in costs       consistency of metrics used
        billed by a contractor to design,      to measure improvements.
        furnish, and install hydrated          Accordingly, we could not
        lime injection systems for SO   3      determine the value TVA
        mitigation at various TVA fossil       received from the $16.2 million
        plants. We determined the              paid to the contractor.
        contractor overbilled
        TVA $292,678, including             Corporate
        (1) $150,147 of ineligible sales    Governance and
        commissions, (2) $89,155            Finance Audits
        of ineligible labor costs,
        (3) $39,878 for a duplicate         During this semiannual period,
        payment made by TVA, and            Corporate Governance and
        (4) $13,498 of ineligible           Finance Audits completed audits
        subcontractor markup costs.         of TVA’s (1) vehicle allowance
                                            and assigned vehicle programs,
     V	 We audited the savings              (2) Distributor Compliance            $9.7 million in monthly fees during
        guaranteed to TVA by                assessments, and (3) VII program.     FY 2011 to Fleet Services for use of
        a contractor for work               In addition, the team provided        assigned vehicles.
        management improvement              oversight of the work of TVA’s
        services. The contractor            external auditor.                     We reviewed TVA’s vehicle
        guaranteed efficiency and                                                 allowance and assigned vehicle
        productivity gains would            Vehicle Allowance                     programs to determine (1) if TVA
        result in a minimum total cost      and Assigned Vehicle                  employees receiving vehicle
        savings to TVA of $17,971,760.      Programs                              allowances met established
        Although we did not find            TVA provided biweekly vehicle         eligibility requirements and if
        evidence of noncompliance           allowances to eligible officers and   proper controls were in place to
        with the contract, we could         key managers in accordance with       determine eligibility criteria were
        not determine if the contractor     TVA’s Vehicle Allowance Program       met, (2) if TVA employees with
        achieved the guaranteed cost        Guidelines that became effective      assigned vehicles met established
        savings because TVA did not         April 1, 2006. Additionally, TVA      criteria for having an assigned
        have appropriate controls in        maintains a light fleet of about      vehicle and if proper controls were
        place to ensure the validity and    2,900 vehicles, which are available   in place to determine eligibility
                                            for assignment to any TVA employee    criteria were met, as well as
                                            with a business need. Business        (3) the cost effectiveness of both
                                            units with an assigned vehicle pay    the vehicle allowance and assigned
                                            a monthly fee to TVA Fleet Services   vehicle programs.
                                            for use of the vehicle. In FY 2011,
                                            TVA paid $648,050 in vehicle          Our audit determined TVA did not
                                            allowances to 65 employees. Also,     document how officers and key
                                            business units paid approximately     managers who were paid vehicle




28         Semiannual report April 1, 2013 – September 30, 2013
allowances met the “business           September 22, 2013, TVA ended          policies and procedures (Distributor
need” eligibility criteria specified   the vehicle allowance program and      Compliance).
in TVA’s Vehicle Allowance             discontinued all vehicle allowance
Program Guidelines. Based on           payments. TVA management also          Our audit of Distributor
the available data, it appeared a      agreed to take corrective actions      Compliance assessments issued
large percentage of the personnel      to address issues identified in the    through December 31, 2012,
who received vehicle allowances        vehicle assignment program.            found several positive attributes
may not have met TVA’s stated                                                 in Distributor Compliance’s
criteria of significant business       Distributor Compliance                 planning and performance of
related travel. We also noted          Assessments                            assessments, but we also noted
several administrative matters         TVA established a distributor          areas where changes were needed
within the guidance that were not      compliance department within           to improve (1) planning and
followed. Additionally, TVA’s Fleet    TVA’s Compliance office in             performance and (2) compliance
Services management did not            the spring of 2011 to perform          with the Distributor Compliance
maintain adequate documentation        assessments and assist TVA             Charter and other applicable
to validate the adequacy of TVA        management and the TVA Board           professional standards and
controls over vehicle assignments.     in determining whether distributor     policies regarding the assessment
                                       customers were in compliance with      reports. More specifically, we
Finally, we were unable to             the TVA Wholesale Power Contract       identified improvements could be
determine which program was            and other regulatory policy.           made with scope statements in
more cost effective because                                                   reports, sampling documentation,
data obtained during the audit         We performed an oversight              sampling methodologies, report
indicated the cost differential        audit of Distributor Compliance        recommendations that would help
between the two programs was           assessments completed                  detect or prevent identified issues
small. However, overall cost           through December 31, 2012, to          from recurring, areas tested, and
savings may be available because       determine if (1) the assessments       ensuring distributors were made
there are individuals who either       were adequately planned and            aware of all issues identified during
receive a vehicle allowance or have    performed to verify distributors’      assessments.
an assigned vehicle who do not         compliance with key provisions of
appear to have a business need for     the Wholesale Power Contract;          Finally, we determined there was
the allowance or vehicle.              (2) the assessments were               adequate segregation between
                                       performed in accordance with the       Retail Regulatory Affairs and
Based on the findings noted            Distributor Compliance Charter         Distributor Compliance. However,
above, we made recommendations         and applicable policies; and           certain work that was being
to TVA management to improve           (3) there was adequate segregation     performed by each TVA group at
the programs. TVA management           between the groups charged             the distributors was duplicative.
generally agreed with our findings     with developing, interpreting,
and recommendations and the            and implementing TVA’s retail          Based on the findings noted
President and CEO approved             regulatory policy (Retail Regulatory   above, we made recommendations
elimination of the vehicle             Affairs) and assessing distributor     to TVA management to improve
allowance program. Effective           compliance with TVA’s regulatory       Distributor Compliance’s




                                                    Semiannual report April 1, 2013 – September 30, 2013              29
     assessments. TVA management           our findings and recommendations      all revenue meters in service. TVA
     generally agreed with our findings    and is taking corrective actions.     management agreed to implement
     and recommendations and is                                                  our recommendations to improve
     taking corrective actions.            IT Audits                             the inventory control weaknesses
                                                                                 identified.
     Valley Investment                     During this semiannual period,
     Initiative Program                    we completed four audits in the       Enterprise Asset
     TVA introduced the VII program as     IT environment on modem access        Management Software
     a means to incentivize customers      controls to certain transmission      Tool Logical Controls
     to invest in the economic             assets; application controls for      The OIG audited TVA’s enterprise
     development of its geographic         TVA’s enterprise asset management     asset management software
     area. The OIG included a review       software; controls over TVA PII       tool (EAM) to determine the
     of the VII program on its annual      stored on TVA desktop and laptop      adequacy of data processing and
     audit plan as the budget for this     computers; and IT security and        application controls ensuring
     program has significantly increased   privacy practices as required by      data integrity and reliability and
     since its inception in 2009. Our      FISMA.                                logical security controls allowing
     objective was to determine if TVA                                           only authorized access to system
     was exercising adequate oversight     Modem Access Controls                 resources and protection of
     over the VII program.                 The OIG performed this audit to       sensitive information. In summary,
                                           determine the effectiveness of        the OIG determined EAM data
     Our audit determined ED               authentication controls for devices   processing and application controls
     personnel complied with TVA           with modem access to certain          to ensure data integrity and
     policies and procedures for           transmission assets. In summary,      reliability were generally adequate.
     oversight of program operations;      we found TVA does not have a          However, EAM logical security
     however, TVA oversight of the         single source that tracks phone       controls to ensure authorized
     VII program as a whole could be       numbers and what is tracked is        access to system resources and
     improved. TVA has not established     incomplete. Using the phone           protection of sensitive information
     performance measures specific to      numbers which were available,         needed improvement. TVA
     the VII program nor performed an      we identified one device which        management agreed with our
     evaluation study to determine the     was accessible using a default        findings and recommendations for
     effectiveness of the program. We      password which TVA management         improvement.
     also noted customer compliance        subsequently reconfigured. We
     audits could be improved by           recommended TVA management            Data Protection
     adding independent verification of    create a central repository for       Controls
     customer reported information.        phone number assignments and          In response to previous OIG
                                           develop policies/procedures           audits of the Privacy Program,
     Based on the findings noted           to populate and update the            TVA has improved privacy review
     above, we made recommendations        repository, and take steps to         processes and increased the use
     to TVA management to improve          ensure transmission assets are        of encryption for storage of data
     oversight of the VII program. TVA     properly secured by performing a      containing PII. As a follow up to
     management generally agreed with      review of the current settings for    the OIG’s biennial review of TVA’s




30         Semiannual report April 1, 2013 – September 30, 2013
Melton Hill




controls to protect PII, the OIG    V	 TVA’s inventory controls of         In our 2013 review of TVA’s
performed this audit to evaluate       active desktops and laptops         information security program,
controls the TVA has in place to       need improvement.                   we determined the program met
protect PII stored on corporate                                            the requirements in the control
laptop and desktop computers.       During the audit, TVA management       areas of (1) continuous monitoring
We tested compliance with TVA       completed remediation actions to       management, (2) configuration
Standard Programs and Processes     correct the discrepancies identified   management, (3) incident response
(SPP), Information Management       during our testing and improved        and reporting, (4) security training
Policy, on storing PII within the   the inventory controls. TVA agreed     program, (5) plans of actions and
designated encrypted area on        to review its options for improving    milestones, (6) remote access
TVA-issued desktop and laptop       security controls on TVA-issued        management, (7) contingency
computers. According to that        desktop and laptop computers.          planning, (8) contractors
policy, users should store PII in                                          systems, and (9) security capital
the user’s “My Documents” folder    FISMA Controls                         planning.  Two of the control areas
on their assigned computer. In      FISMA is meant to bolster              (identity and access management
summary, we found:                  computer and network security          and risk management) are multiyear
                                    within the federal government.  In     projects, and the actions completed
V	 A large percentage of the        accordance with FISMA and              to-date complied with FISMA
   computers we tested contained    guidance from the Office of            requirements. Additionally, we
   PII that was stored outside of   Management and Budget, TVA             identified a process improvement
   the encrypted “My Documents”     and the OIG are required to            in the area of advanced security
   folder.                          report on agency-wide IT security      training. TVA agreed to implement
                                    and privacy practices annually.        the process improvement.




                                                 Semiannual report April 1, 2013 – September 30, 2013             31
     Operational Audits                   generation, TVA requested the          totaling $500 million or more were
                                          NRC reinstate the BLN construction     published in the final DSEP study
     During this semiannual reporting     permit so the engineering and          dated August 20, 2010.
     period, Operational Audits           economic feasibility of completing
     identified improvements made in      Unit 1 could be further evaluated.     On August 18, 2011, the TVA
     BLN’s risk management program        After the permits were reinstated      Board approved the completion
     and identified opportunities         in March 2009, TVA’s Nuclear           of BLN Unit 1. The project was
     to improve WBN’s commodity           Construction (NC) organization         approved with a cost not to exceed
     tracking database.  The team         (formerly Nuclear Generation           $4.9 billion. The approved
     also assessed whether TVA was        Development and Construction)          $4.9 billion included a $537 million
     adequately addressing the risk       initiated a detailed scoping,          contingency which included the
     of significant equipment failures    estimating, and planning (DSEP)        $500 million previously requested
     in its transmission system and       study with the objective to            in addition to another $37 million
     applied certain procedures to        determine with a high level of         related to potential modifications
     provide assurance that TVA was       confidence the scope, cost, and        required due to the nuclear disaster
     in compliance with the annual        schedule to complete BLN               at Fukushima. Since then, TVA has
     reporting requirements of the        Unit 1. As part of the DSEP effort,    announced its decision to review
     Green Pricing Accreditation
     Program. Finally, the team
                                              Bellefonte Nuclear Plant
     identified applicable requirements
     and directives related to
     climate change in response to a
     congressional request.


     Bellefonte Nuclear
     Plant Risk Program
     The BLN site is located on a
     1,600-acre peninsula on the
     western shore of Guntersville
     Reservoir near the town of
     Hollywood, Alabama. Construction
     on BLN Unit 1 was suspended
     in 1988 in response to declining
     growth in demand for electric
     power. Subsequently, in October      BLN project risk reviews and           the estimates related to BLN, and
     2005, at the request of TVA, the     risk management activities were        the project estimates are expected
     Nuclear Regulatory Commission        conducted, culminating in a project    to change. According to TVA,
     (NRC) withdrew the BLN Unit 1        risk register which contained a list   BLN’s budget will be reduced from
     construction permit.                 of risks, mitigation activities, and   approximately $182 million in
                                          associated contingency amounts.        FY 2013 to $66 million in FY 2014.
     In August 2008, due to changes       Risk descriptions and associated       Activities to continue in FY 2014
     in the economics of power            contingency amounts for each risk      include developing and validating



32         Semiannual report April 1, 2013 – September 30, 2013
the estimate to complete              facilitation of the risk program.      needed, the overall resource-
construction, gathering information   Our audit found a renewed              loaded project schedule. In
to support the integrated planning    emphasis on the risk management        April 2012, WBN Unit 2
process, and protecting plant         program and a new risk manager         management issued new estimates
records and documents.                had been assigned to pilot and         to complete the project which
                                      implement a new risk management        provided ranges for costs and
The audit focused on the adequacy     process. As part of these renewed      schedule to finish the work at
of TVA’s consideration of risks       efforts, the new risk manager          WBN Unit 2 in order “to control,
associated with the construction      took steps to address needed           monitor, and maintain the basis
of BLN Unit 1 and included BLN        improvements in guidance,              of the estimate.” This included
construction risk management          oversight, and documentation.          revising the “commodity
program activities in place           We verbally communicated               charging and reporting practices
from August 2009 through              additional actions that could be       to more accurately reflect the
November 2011 and subsequent          taken to ensure history does not       method in which final work is
changes to the program. Other         repeat itself as the project moves     being completed” and linking
risks associated with the project     forward, including clarification and   the estimate to complete the
that were not managed and             clear communication of whether         project to the timeframe in “the
mitigated by the project-specific     risk mitigation activities are to      work schedule and commodity
construction risk management          be included in the contingency         performance indicators
program included the risk that        estimate controlled at the project     established.” Commodity
TVA would not need the power          level, and the management reserve      charging and reporting includes
when construction was completed,      amount controlled at the corporate     capturing and tracking progress
and financing the project would       level, and what this means in terms    of the installation, de-installation,
cause TVA to bump up against its      of the project’s estimated cost.       and modification of components,
statutorily imposed debt ceiling.                                            such as hangars, conduit, cable,
These risks were not managed in       WBN Plant Unit 2                       and welds. Accurate and timely
the project-specific construction     Construction Project                   tracking of commodities is
risk management program and,          Commodity Tracking                     important to the project for various
therefore, were not included in our   Process                                reasons, including calculating
audit.                                In late 2011, TVA amended its          the cost performance index and
                                      engineering, procurement, and          gauging the project’s progress.
Earlier program failures indicated    construction contract with Bechtel
significant improvements were         Power Corporation for WBN              In July 2012, WBN Unit 2
needed. Specifically, the program     Unit 2 to ensure construction          developed and implemented a
lacked strong continuity in the       progressed in the most efficient       commodity tracking database
risk management process which         and cost-effective manner possible.    (CTD) to capture and track progress
affected program effectiveness,       With this change, TVA became           on the installation of commodities.
including ineffective guidance        responsible for overall project        WBN Unit 2 management
and oversight of BLN’s risk           management and direction, which        requested the OIG review the
program and documentation of          included developing, monitoring,       commodity tracking process
key risk information necessary for    maintaining, and revising, as          implemented for the WBN Unit 2




                                                    Semiannual report April 1, 2013 – September 30, 2013             33
     construction project. We identified    organization defined as equipment       The audit determined that while
     minor vulnerabilities in the           failure and forced outages due          the identified mitigation strategy
     commodity tracking process at the      to aging transmission lines and         and supporting actions were
     WBN Unit 2 construction project        substations. The mitigation plan        generally designed to address the
     with regard to potential duplication   was to reduce risk by focusing on       risk, the actions were not effective
     of data entry and review and made      long-term asset management to           in reducing the risk. While the risk
     recommendations for corrective         make failures less likely and more      was not reduced, we determined
     action.                                manageable. We noted that               Energy Delivery was managing
                                            most assets were replaced due to        the risk as funding permitted.
     Significant Equipment                  obsolescence or failure, but Energy     Mitigating actions completed
     Failure Risk – Energy                  Delivery intended to work toward        and no longer appearing on
     Delivery                               a replacement plan that considers       the risk map did not result in a
     In July 2010, TVA instituted an        the condition, age, and importance      reduction in the risk rating. In fact,
     enterprise risk management (ERM)       of assets to set replacement            the consequence rating and the
     policy that provides guidance on       priorities. The fourth quarter,         projected trend have increased
     risk management activities within      FY 2012, version of the ERM risk        over time. The audit also identified
     TVA. The policy states the purpose     map included four specific actions      opportunities to enhance the risk
     of ERM at TVA is to protect the        to mitigate the risk: (1) reclaim       mitigation strategy documentation.
     value of the enterprise and realize    the rights-of-way of high-voltage
     opportunities for stakeholders         transmission lines, (2) establish       The report recommended that
     by promoting the efficient and         a pilot project for an asset risk       TVA management determine the
     effective management of risk           management system, (3) develop          level of financial risk it is willing to
     across TVA. The policy also states     a system to prioritize transformer      accept from aging transmission
     strategic business units within TVA    replacement, and (4) establish an       assets and either provide adequate
     are responsible for managing risks     asset preservation program for          program funding where possible
     within their business operations       replacing equipment.                    to mitigate or accept the risk,
     and should identify and assess risks                                           and improve risk mitigation
     associated with achieving their        Because of the importance of a          documentation.
     business objectives and develop        reliable transmission system to
     risk management plans that             TVA, the OIG audited the risk           Agreed-Upon Procedures
     mitigate risk based on TVA ERM         of significant equipment failure        for Green-e Energy
     guidelines.                            in Energy Delivery to assess            Program FY 2012
                                            whether risk mitigation plans           TVA’s Green Power Switch Program
     As required by the ERM policy,         were established and properly           produces electric power from
     TVA’s Energy Delivery organization     designed to achieve the desired         renewable resources such as solar,
     identified risks that may prevent      results and operating effectively       wind and methane gas, and adds
     the organization from achieving        as intended. We also planned to         such sources to TVA’s power mix.
     its objective of safe and reliable     identify opportunities to improve       Both solar and wind power are
     delivery of electric power to TVA      mitigation strategies for reducing      produced in sufficient quantities to
     customers. One risk identified by      significant equipment failure risk in   qualify for accreditation standards
     Energy Delivery was significant        Energy Delivery.                        administered by the CRS. The
     equipment failures which the                                                   OIG completed agreed-upon



34         Semiannual report April 1, 2013 – September 30, 2013
procedures to assist the CRS in
determining TVA’s compliance with
the annual reporting requirements
of the CRS Green Pricing
Accreditation Program for the
year ended December 31, 2012.
These procedures included steps
to verify that the renewable energy
supply was sufficient to meet
sales; products met the Green-e
criteria and stated product content;
and marketing as well as product
information was accurate and
communicated to customers. The
results of the procedures verified
that TVA’s Green Power sales were
based on electricity generated or
acquired from eligible renewable       the requirements and identified       with customers.  These and other
sources and otherwise met the          potential gaps.                       efforts planned by TVA under the
above aspects. CRS was provided                                              authorities granted by the TVA
with results of the procedures         TVA demonstrated that                 Act can reduce emissions and
applied.                               appropriate actions and plans         contribute to regional resilience
                                       were in place to address all the      from the effects of climate change. 
Congressional Request                  requirements and directives we        TVA incorporates plans, such as
on Climate Change                      identified.  TVA has sufficient       the Integrated Resource Plan,
In response to a congressional         authority to address potential        into ongoing business planning
request from the Bicameral             impacts in the Southeast and          processes.  TVA is implementing
Task Force on Climate Change,          especially to the Tennessee Valley    those plans and taking the steps
we identified the existing             river system.  TVA was established    to effectively meet the vision
requirements and directives            by Congress in 1933 to address        of a more balanced generation
relating to climate change in          a wide range of environmental,        portfolio.  These efforts can
legislation, regulations, executive    economic, and energy issues in        reduce TVA’s carbon footprint
orders, and other directives that      the region; and throughout its        in the Southeast and increase
apply to TVA.  To determine            history, TVA has been able to         sustainability practices over time.
whether TVA was meeting the            manage its generation mix within
applicable requirements and            the authorities Congress granted. 
directives, we compared planned        With TVA’s vision for 2020, greater
and current action items in TVA’s      focus is being placed on cleaner
Climate Change Adaptation              energy sources, reducing reliance
Action Plan and TVA’s Strategic        on coal generation, and improving
Sustainability Performance Plan to     energy efficiency in facilities and




                                                    Semiannual report April 1, 2013 – September 30, 2013            35
                        REPRESENTATIVE
                         Evaluations




36   Semiannual report April 1, 2013 – September 30, 2013
  SUMMARY OF REPRESENTATIVE EVALUATIONS
  During this semiannual period, Evaluations completed six reviews. Due to the sensitive nature of one of the reviews,
  no further discussion is included. Evaluations completed a review of the capital project approval process. The team
  also completed a review of TVA’s succession planning and two reviews of TVA’s nuclear program—one of preventive
  maintenance and the other of the WBN Unit 2 quality assurance program. Additionally, the team completed a review
  of Coal and Gas Operations emergency preparedness and response. More information on each of the reviews can be
  found below.




Capital Projects                        more than twice as long as the TVA       the next five years.  Also, TVA has
Approval Process                        average. We also found 31 percent        identified a risk of senior leadership
The OIG initiated this review as a      of NPG projects reviewed came            attrition that could leave a gap
follow up to the OIG’s review of        in more than 25 percent behind           in key positions.  This review
the project management software,        the forecasted schedule. While           was conducted as a follow up to
PowerPlant. During that review, we      there were also projects that came       a previous OIG review of TVA’s
identified several areas for further    in ahead of schedule, the degree         succession planning to further
analysis related to timely project      to which schedules were missed           assess TVA’s succession planning.
approvals, delegated approvals,         indicated there was potential for
and project charges allocated           more accurate planning related to        Our review found TVA has made
incorrectly. The objective of this      forecasted schedules.                    improvements to succession
review was to determine if the                                                   planning; however, areas for
TVA capital project approval            We recommended the Vice                  improvement still exist.  In
process was (1) efficient and timely,   President of Nuclear Business            addition, we found TVA could
(2) performed in accordance with        Operations evaluate the approval         strengthen some best practices.
TVA policies, and (3) aligned with      process for NPG capital projects to      Improvements include the use of
industry best practices.                identify opportunities to improve        a talent grid, implementation of
                                        the timeliness of project approvals.     succession planning metrics, and a
Our review found the capital            We also recommended the                  more accurate attrition prediction
projects approval process was           Director of Capital Productivity and     model.  Areas for improvement
generally timely, performed in          Economic Analysis evaluate the           include: (1) the follow-up of
accordance with TVA policies,           planning and forecasting process         action items identified in talent
and TVA had incorporated best           to identify improvement in these         reviews including the development
practices into the approval process.    areas.                                   of organizational action plans;
However, we found improvements                                                   (2) cross-pollination of talent;
needed in the timeliness of NPG         Succession Planning                      (3) reduction of talent review
project approvals and forecasting       TVA has stated its future depends        preparation time; and (4) frequent
of project schedules. For example,      on effective succession planning         revisions of the talent review and
we found the capital project            and faces a potential workforce          succession planning process, which
approval process for NPG took           challenge due to retirement within       have caused frustration among




                                                     Semiannual report April 1, 2013 – September 30, 2013                 37
     TVA management.  Additionally,          (4) complete and implement             questions about the validity of the
     TVA is working to address areas         the SPP, Strategic Workforce           reported PM metrics.  For calendar
     of concern regarding populating         Management, including a unified        year 2012, we were provided
     the succession plans with realistic     definition for a mission critical      two sets of PM metrics for each
     candidates.                             position; (5) work with TVA            site.  There were differences in
                                             management to develop a plan           the data sets, and some were
     As part of this review, we identified   that promotes executive ownership      significant.  TVA personnel were
     succession planning best practices      of talent development; (6) consider    unable to reconcile the two
     and compared them to the                developing formalized transition       sets of metrics.  This made it
     processes TVA currently has in          plans, similar to the NPG in other     impossible to determine actual
     place.  Of ten best practices           organizations; and (7) clarify the     PM performance and what should
     identified, we found TVA could          succession planning process by         have been reported. These issues
     strengthen executive ownership,         producing a high-level, TVA-wide       could impact the value of the NPG
     onboarding of succession                communication that describes           equipment reliability index that is
     candidates, and transparency of         the talent review and succession       part of NPG’s Winning Performance
     the succession planning process.        planning process and considers         Scorecard for FY 2013.
     In addition to these findings,          the merits of communicating
     all TVA managers who were               performance and staff potential.       We found the deviations from PM
     interviewed expressed concerns                                                 schedules were negatively affecting
     with the use of forced distribution     Nuclear Power Group                    system and component health. 
     for the talent grid.                    Preventive Maintenance                 Sixteen of 34 system health reports
                                             Preventive maintenance (PM) is         and four of eight component
     We recommended the Vice                 important to the reliable operation    health reports we reviewed
     President, Human Resources,             of assets.  As a result of recent      listed PM as an issue.  While PM
     (1) work in conjunction with            issues with nuclear performance,       program health has historically
     TVA organizations to improve            we conducted a review of NPG’s         been rated poorly, there has been
     follow-up actions by developing         PM program.  The objective of our      improvement recently.
     organizational action plans as          review was to determine if nuclear
     stated in SPP, Succession Planning;     plant PM has been performed            TVA started a preventive
     (2) evaluate options to incorporate     in accordance with established         maintenance optimization (PMO)
     cross-pollination of TVA                schedules and, if not, what effect     program to bring its PM program in
     organizations into the succession       the deviations are having.             line with industry standards.  Due
     planning process, including a                                                  to slow progress at all three plants,
     unified succession planning system      Our review found that reported         escalations were filed to raise the
     that could also reduce talent           PM metrics may not be accurate.        concern to a higher level.  NPG SPP,
     review preparation; (3) determine if    We were unable to determine            Governance, Oversight, Execution,
     changes and initiatives to the talent   the actual number of times PM          and Support Program, provides
     review and succession planning          was performed late or deferred         an escalation process to address
     process are working and intended        for TVA’s three nuclear plants.        performance weaknesses where
     results are achieved before             During our review, we identified       sites are not implementing timely
     additional changes are made;            several areas of concern that raised   actions to improve performance.




38         Semiannual report April 1, 2013 – September 30, 2013
                                                                                             Sequoyah Nuclear Plant

We recommended the Executive
Vice President and Chief
Generation Officer, Generation,
take steps to (1) define methods
for consistent and accurate
reporting of PM metrics across
the nuclear fleet, including a step
for verification and retention of
documentation for items manually
excluded; (2) address the issue
with the “counts as deferral” flag
used in PM tracking; (3) perform an
analysis to determine what impact
inaccurate PM data could have
on the equipment reliability index                                             The breakdown in the QA
                                        assurance” comprises all those
calculation for FY 2013 winning                                                program which was related to
                                        planned and systematic actions
performance; (4) reduce deviations                                             the commercial-grade dedication
                                        necessary to provide adequate
from PM schedules; (5) take                                                    program was identified by the
                                        confidence that a structure,
necessary actions to prevent                                                   NRC.  Specifically, there was no
                                        system, or component will perform
recurring PMO implementation                                                   oversight of the commercial-grade
                                        satisfactorily in service.  The
problems resulting from lack of                                                dedication program by QA since
                                        objective of our review was to
site support; and (6) expedite                                                 2008.  In response, TVA conducted
                                        determine if NC QA was effective
PMO efforts.  TVA management                                                   an evaluation to see if problems
                                        in its oversight of the WBN Unit 2
agreed with our findings and                                                   existed in other areas.  TVA’s
                                        construction project.
recommendations.                                                               evaluation found a few areas that
                                        We found NC QA was generally           required minor adjustments, and
WBN Unit 2 Quality                      effective in its oversight of the      those adjustments were made. 
Assurance Program                       construction project; however, a       Furthermore, TVA assembled
As a result of delays and                                                      an independent, technical team
                                        breakdown in the QA program
overruns in the TVA WBN Unit 2                                                 to review commercial-grade
                                        resulted in a lack of oversight in
construction project, questions                                                dedication packages. As of May
                                        one area.  With the exception of
have been raised about the quality                                             2013, no significant issues had
                                        the breakdown in QA discussed in
of the work performed.  NC QA                                                  been identified. 
                                        more detail that follows, no other
plays a key role in ensuring that
                                        significant issues were identified. 
work completed meets high-quality                                              While the turnover of one system
                                        In addition, we reviewed
standards. Title 10, part 50,                                                  had occurred, a process for
                                        documentation that showed NC
of the Code of Federal Regulations,                                            transitioning the authority for the
                                        QA conducted oversight of the
Domestic Licensing of Production                                               execution of the QA program
                                        contractors’ QA activities. As
and Utilization Facilities, specifies                                          from the contractor to NC QA had
                                        issues were identified, problem
18 quality assurance criteria for                                              not been implemented, which
                                        evaluation reports were generated
nuclear power plants and fuel                                                  could limit the effectiveness of
                                        to address those issues.
reprocessing plants. “Quality



                                                      Semiannual report April 1, 2013 – September 30, 2013           39
     NC QA’s oversight efforts.  The          Our review found that although         local responders to determine
     process for transition of authority      progress has been made in              resource needs and assist with
     from the contractor to NC QA will        emergency preparedness                 planning; (2) continue to work
     provide evidence the construction        and response, improvements             toward a more in-depth emergency
     phase QA requirements in the             could have been implemented            preparedness program through
     Nuclear Quality Assurance Plan           more effectively.  In addition,        the three-phase training program;
     have been met and will also help         opportunities to improve the           and (3) work in conjunction with
     to prevent any steps or reviews          program still exist in the areas       the sites to (a) consider adding
     from being missed.  Therefore,           of site consistency and training.      the site-specific emergency
     we recommended the Senior Vice           Through interviews and review          response plan into training, drills,
     President, NC, make implementing         of documentation, we found             and/or tabletop exercises to
     the process for the transfer of          a lack of consistency in how           provide more experience with
     authority for the execution of the       emergency preparedness is              emergency response plans, and
     QA program from the contractor           handled between the sites.  Also,      (b) evaluate ways to balance the
     to NC QA a priority.  TVA                training more personnel on the         time commitments between the
     management agreed with our               National Incident Management           roles of Shift Operations Supervisor
     findings and recommendation.             System and adding training             and Incident Commander or
                                              opportunities could build a more       designate another position to
     Coal and Gas Operations                  in-depth emergency preparedness        serve as Incident Commander. 
     Emergency Preparedness                   program.  An additional concern        TVA management agreed with the
     and Response                             was raised during interviews about     findings and recommendations in
     There have been a number                 the responsibilities of the Shift      the report except for the finding
     of recent incidents requiring            Operations Supervisors.  The roles     regarding time commitment for
     emergency response at TVA fossil         specified for Incident Commanders      the Shift Operations Supervisor. 
     plants, including the ash spill at       are generally in addition to           According to TVA management,
     Kingston Fossil Plant and fires          their jobs as Shift Operations         this is a concern, but it appears to
     at multiple plants.  This review         Supervisors, and there were            be an isolated comment and not a
     was initiated to assess TVA’s            concerns that the training required    widespread condition.  However,
     coal and gas fleet’s emergency           a significant time commitment in       there are plans to investigate the
     preparedness. The objective              addition to the daily work load.       time commitment for training and
     of the review was to determine                                                  work-load balance of the Shift
     if Coal Operations and Gas               We recommended the Senior              Operations Supervisor.
     Operations have made progress            Vice President, Engineering,
     in their Emergency Preparedness          Environmental, and Support
     and Response Program since the           Services (1) take steps to increase
     Kingston Fossil Plant ash spill.  This   the consistency of the Emergency
     review looked at the current status      Preparedness and Response
     of emergency preparedness with           Program including (a) revising
     respect to both Coal Operations          emergency plans to include
     and Gas Operations.                      consistent information in a concise,
                                              easily accessible format, and
                                              (b) communicating with each site’s



40         Semiannual report April 1, 2013 – September 30, 2013
Semiannual report April 1, 2013 – September 30, 2013   41
                        REPRESENTATIVE
                        INVESTIGATIONS




42   Semiannual report April 1, 2013 – September 30, 2013
  SUMMARY OF REPRESENTATIVE INVESTIGATIONS
  This reporting period, our investigations resulted in two individuals convicted in federal court on charges including
  theft of government property and conspiracy to defraud the U.S.  Five people were sentenced on federal charges
  including major fraud, wire/mail fraud, and workers’ compensation fraud.  Our investigations resulted in restitution,
  fees, and projected savings exceeding $2 million.  We opened 173 cases and closed 158. Representative highlights
  of our activities follow.




Guilty Plea of Former                    a false tax return. He also faces a       Federal conflict of interest law
TVA Vice President                       maximum fine of $250,000 on each          prohibits federal officials and
In February 2013, a federal              count.                                    employees from acting in their
grand jury returned an 11-count                                                    official capacities on particular
superseding indictment against           This investigation was conducted          matters affecting personal financial
Masoud Bajestani, former TVA             by TVA OIG, Homeland Security             interests. No evidence was
WBN Unit 2 Vice President,               Investigations, and Internal              found to support the allegation
charging him with conspiracy,            Revenue Service’s Criminal                Mr. Sansom had done so.
violations of the IEEPA and the          Investigation Division.
Iranian Transactions Regulations,                                                  In addition to the conflict of
making a false statement to a            Nepotism and                              interest law, TVA has a policy
federal agency, international            Conflict of Interest                      prohibiting TVA Board members
money laundering, and filing false       Allegations Against                       from owning investments in
income tax returns.                      TVA Board of Directors                    distributors, entities in the
                                         Chairman                                  electricity business, and companies
On September 4, 2013,                    We investigated allegations TVA           adversely affected by TVA’s
Mr. Bajestani pled guilty to             Board Chairman William “Bill”             success. None of Mr. Sansom’s
conspiracy to violate the IEEPA and      Sansom had a relative working             financial interests fell into these
Iranian Transactions Regulations,        at TVA in violation of nepotism           categories.
and two counts of filing false           policy and, more critically, that
income tax returns. He also agreed       Mr. Sansom’s personal financial           Hatch Act Violation
to forfeiture of $600,000 in U.S.        interests and position at TVA             The Hatch Act (5 U.S. Code,
currency, representing the funds         constituted a conflict of interest.       Sections 73212-7326) was passed
used to promote the specified                                                      to protect federal employees from
unlawful activity.                       The nepotism claim was                    political pressures that might affect
                                         unfounded. An employee bearing            their careers as employees of the
Sentencing is set for January 2014.      the same name as a member of              federal government and governs
Mr. Bajestani faces a maximum            Mr. Sansom’s immediate family is,         the types of political activities in
penalty of five years in prison for      in fact, unrelated.                       which federal employees may
conspiracy to violate the IEEPA and                                                participate. While most employees
three years for each count of filing                                               are permitted to engage in a




                                                       Semiannual report April 1, 2013 – September 30, 2013                43
     variety of political activities, they   Government in the                    V	 The evidence developed by
     are prohibited from engaging in         Sunshine Act – Selection                our investigation shows the
     political activity while on-duty, or    of President and Chief                  TVA Board followed notational
     otherwise under the auspices of         Executive Officer                       procedure by not discussing
     their official position, and from       We received a complaint alleging        the candidates’ qualifications or
     using federal resources for partisan    the TVA Board failed to give            otherwise deliberating with one
     political discourse. The U.S. Office    proper notice, as required by the       another about the selection.
     of Special Counsel (OSC) has            Government in the Sunshine Act          TVA Board members voted
     primary jurisdiction over Hatch Act     (Sunshine Act), when the TVA            separately.
     violations.                             Board selected William D. (Bill)
                                             Johnson as TVA’s President and       V	 Because the Sunshine Act does
     We received information that,           CEO.                                    not prohibit the notational
     during the last presidential election                                           procedure and the evidence
     period, two employees used TVA          Our investigation found the             demonstrates that the TVA
     resources to send politically charged   following:                              Board properly used that
     e-mail en masse that included                                                   procedure, the TVA Board did
     references questioning Mormonism,       V	 As a general rule, the Sunshine      not violate the Sunshine Act.
     Mitt Romney’s tax promises, and            Act requires public meetings
     questioning how “dumb” a person            by an executive agency to be      Civil Agreement Yields
     would have to be to belong to the          open to the public. However,      Payments to TVA
     Democratic Party, all in violation         case law establishes that         Exceeding $700,000
     of the Hatch Act. Both individuals         notational voting—a process       TVA OIG conducted an
     had previously undergone required          in which matters to be decided    investigation of Signal Industrial
     TVA Ethics training, which includes        are listed and circulated among   Products, Inc. (Signal), a wholesaler
     information on the Hatch Act.              eligible voters individually—     of pneumatic and fluid seals, based
                                                does not constitute a meeting,    on allegations received from the
     We referred this matter to the OSC.        and it does not constitute        Defense Criminal Investigative
     Its investigation determined the two       a violation of the Sunshine       Service that Signal routinely
     violated the Hatch Act when they           Act. Furthermore, because         substituted products sold on
     disseminated e-mails directed at           notational voting does not        contract to TVA. Subsequent
     the success or failure of a political      constitute a meeting as           investigation by TVA OIG revealed
     party or partisan political candidate      described in the Sunshine Act,    that in addition to substituting
     while on duty and in the federal           notice is not required.           products, Signal also overcharged
     workplace. The OSC declined to                                               above contract terms for products
     pursue disciplinary action at this      V	 In selecting a CEO, the TVA       supplied to TVA. On August 2,
     time in lieu of warning letters being      Board decided to use the          2013, the DOJ entered into an
     issued to the individuals. Following       notational process to protect     agreement with Signal in which its
     our Report of Administrative Inquiry,      the privacy of applicants and     principals agreed to pay $750,000
     TVA management issued the two              to address the difficulties of    for improper substitution of
     individuals written warnings for           obtaining a quorum at that        products without disclosing that
     violating both the Hatch Act and           time.                             information to TVA or Arnold
     TVA policy.                                                                  Air Force Base (Arnold AFB),



44          Semiannual report April 1, 2013 – September 30, 2013
Johnsonville Fossil Plant




 submission of false records or         would then pay Mr. King in cash.       Labor (DOL) Office of Workers’
 statements to Arnold AFB, and          Those he solicited to participate in   Compensation Program (OWCP)
 overcharges to both TVA and            this practice paid Mr. King a deeply   benefits as a result of on-the-job
 Arnold AFB. The $750,000,              discounted price for fuel, which he    accidents ranging from minor
 less payments to DOJ and the           would keep, and TVA paid the full      incidents to permanently disabling
 Department of Defense, yields          fuel expenses before it discovered     injuries. Although OWCP manages
 $727,201 to TVA.                       the scheme to defraud.                 the program, the benefits are
                                                                               paid by TVA.  Permanent OWCP
 Prosecution Completed                  On April 17, 2013, Mr. King pled       beneficiaries are obligated to
 in Gas Card Fraud Case                 guilty to one count of stealing        report any employment to DOL.
 During a prior reporting period,       public money by obtaining funds
 an investigation revealed a former     through the unlawful use of the        Data mining revealed a former
 TVA Materials Handler, Jason R.        TVA fuel card and was sentenced        TVA employee, adjudged in the
 King, repeatedly allowed members       on September 13, 2013. Mr. King        past to have suffered a full loss
 of the general public to use his       was ordered to pay TVA full            of wage-earning capacity, earned
 assigned TVA fuel card to purchase     restitution of $10,206 and was         more than $190,000 during a two-
 gas for their personal vehicles.       sentenced to time served and three     year period as a skilled technician
 The practice involved escorting a      years’ probation.                      at a medical supply company. 
 nearby fuel customer to a pump,                                               Further investigation revealed the
 swiping the TVA fuel card, and         More Than $500,000                     former employee reported his
 entering the personal identification   Projected Savings to TVA               employment to DOL as required;
 number necessary to complete the       Employees at TVA are eligible          however, his OWCP benefits
 transaction. Persons obtaining fuel    to receive U.S. Department of          continued uninterrupted.



                                                     Semiannual report April 1, 2013 – September 30, 2013            45
      Fort Loudoun Dam




     We shared our findings with DOL,        contractor, falsified billing and     issued a Report of Administrative
     which reassessed the individual’s       inspection reports during a fall      Inquiry to TVA management. As a
     status and determined him to be         2010 outage at Widows Creek           result, TVA and GUBMK instituted
     fully rehabilitated. TVA is projected   Fossil Plant. Ultimately, no          practices to improve GUBMK
     to save more than $500,000 as a         instances of falsification or fraud   performance and ensure ongoing
     result of the former employee’s         were found; however, various          policy compliance.
     termination of benefits.                policy and procedural violations by
                                             GUBMK regarding access control
     Waste Identified                        and accountability were identified.
     Exceeding $500,000                      Furthermore, TVA incurred
     We investigated allegations that        $519,264 in unnecessary costs
     Gillbert Union Boiler-Morrison          associated with this outage, in
     Knudsen Constructors (GUBMK),           part due to GUBMK workmanship
     a TVA Partnership Alliance              and management decisions. We




46         Semiannual report April 1, 2013 – September 30, 2013
                                      Kingston Fossil Plant




Semiannual report April 1, 2013 – September 30, 2013          47
                       Legislation and
                         regulations




48   Semiannual report April 1, 2013 – September 30, 2013
  Legislation and regulations
  Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall review
  existing and proposed legislation and regulations relating to programs and operations of such establishment and
  make recommendations in the semiannual reports…concerning the impact of such legislation or regulations on the
  economy and efficiency in the administration of such programs and operations administered or financed by such
  establishment or the prevention and detection of fraud and abuse in such programs and operations.




In this section of our Semiannual      may direct recommendations              During this reporting period,
Report, it is our intent to address    to general positions and issues,        we are not making any
only current and pending               particularly when there are multiple    recommendations to Congress
legislation which relates to           bills dealing with the issue. At        regarding current or pending
the economy or efficiency of           other times, we anticipate making       legislation.
TVA operations when we have            recommendations relating to
recommendations or comments            particular statutes and bills and
to make to Congress regarding          their particular wording.
the legislation. At times, we


                                                                                                       Fontana Dam




                                                    Semiannual report April 1, 2013 – September 30, 2013             49
                                APPENDICES




50   Semiannual report April 1, 2013 – September 30, 2013
                                                                                               Appendix 1


INDEX OF REPORTING REQUIREMENTS UNDER THE INSPECTOR GENERAL ACT

   REPORTING                                REQUIREMENT                                          PAGE

 Section 4(a)(2)    Review of Legislation and Regulations                                                 48

 Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                                     26-47

                    Recommendations With Respect to Significant Problems, Abuses, and
 Section 5(a)(2)                                                                                       26-47
                    Deficiencies

                    Recommendations Described in Previous Semiannual Reports in Which
 Section 5(a)(3)                                                                                  Appendix 4
                    Corrective Action Has Not Been Completed

                    Matters Referred to Prosecutive Authorities and the Prosecutions and          Appendix 5
 Section 5(a)(4)
                    Convictions That Have Resulted                                                    42-47

 Section 5(a)(5)
                    Summary of Instances Where Information Was Refused                                 None
 and 6(b)(2)

 Section 5(a)(6)    Listing of Audit and Evaluation Reports                                       Appendix 2

 Section 5(a)(7)    Summary of Particularly Significant Reports                                        26-47

                    Status of Management Decisions for Audit and Evaluation Reports
 Section 5(a)(8)                                                                                  Appendix 3
                    Containing Questioned Costs

                    Status of Management Decisions for Audit and Evaluation Reports
 Section 5(a)(9)                                                                                  Appendix 3
                    Containing Recommendations That Funds Be Put to Better Use

                    Summary of Audit and Evaluation Reports Issued Prior to the Beginning
 Section 5(a)(10)   of the Reporting Period for Which No Management Decision Has Been                  None
                    Made

 Section 5(a)(11)   Significant Revised Management Decisions                                           None

                    Significant Management Decisions With Which the Inspector General
 Section 5(a)(12)                                                                                      None
                    Disagreed

                    Information Under Federal Financial Management Improvement Act of
 Section 5(a)(13)                                                                              Not Applicable
                    1996

                    Appendix of results of any peer review conducted by another Office
 Section 5(a)(14)   of Inspector General during the reporting period and, if none, a              Appendix 8
                    statement of the date of the last peer review.

                    List of outstanding recommendations from any peer review conducted
                    by another Office of Inspector General, including a statement
 Section 5(a)(15)                                                                                      None
                    describing the status of the implementation and why implementation is
                    not complete.

                    List of peer reviews conducted of another Office of the Inspector
                    General during the reporting period, including a list of any outstanding
 Section 5(a)(16)                                                                                      None
                    recommendations made from any previous peer review that remain
                    outstanding or have not been implemented.




                                              Semiannual report April 1, 2013 – September 30, 2013              51
     Appendix 2
     OIG AUDIT REPORTS ISSUED DURING THE SIX-MONTH PERIOD ENDED SEPTEMBER 30, 2013

          REPORT NUMBER                                                                               QUESTIONED              UNSUPPORTED               FUNDS PUT TO
                                        TITLE
          AND DATE                                                                                         COSTS                    COSTS                 BETTER USE
                                                                               CONTRACT AUDITS
          2013-14958                    Proposal for Flexible Membrane Liner System
                                                                                                                       $0                        $0                 $93,549
          04/15/2013                    and Cap Soil for Dredge Cell Closure

          2012-14775
                                        Dewolff, Boberg & Associates, Inc.                                             $0                        $0                      $0
          05/22/2013

          2013-15014
                                        Proposal for Engineering Services                                              $0                        $0                $254,000
          05/22/2013

          2013-14951                    Proposal for Hydro Modernization and Unit
                                                                                                                       $0                        $0               $3,460,000
          05/31/2013                    Rehabilitation

          2011-14276
                                        MPW Industrial Services                                                $435,585                          $0                      $0
          06/10/2013

          2013-15054
                                        Proposal for Engineering Services                                              $0                        $0               $4,210,000
          06/10/2013

          2013-15011
                                        Proposal for Engineering Services                                              $0                        $0               $4,017,000
          07/03/2013

          2013-15012                    Proposal for Information Management System –
                                                                                                                       $0                        $0               $1,754,300
          07/08/2013                    Bellefonte Nuclear Plant

          2013-15098
                                        Proposal for Engineering Services                                              $0                        $0               $2,531,000
          07/12/2013

          2013-15057
                                        Proposal for Engineering Services                                              $0                        $0               $1,652,000
          07/24/2013

          2013-15055
                                        Proposal for Engineering Services                                              $0                        $0               $5,610,000
          07/26/2013

          2013-14947                    Proposal for Hydro Modernization and Unit
                                                                                                                       $0                        $0               $5,758,943
          08/06/2013                    Rehabilitation1

          2012-14741
                                        Nol-Tec Systems, Inc.                                                  $292,678                    $39,878                       $0
          08/20/2013

          2013-15056
                                        Proposal for Engineering Services                                              $0                        $0                $374,900
          08/26/2013

          2013-15203
                                        Proposal for Engineering Services                                              $0                        $0               $2,050,000
          08/29/2013

          2013-15308                    Review of Existing Rates for a Contract Monetary
                                                                                                                       $0                        $0               $1,034,200
          09/10/2013                    Limit Increase

          2012-14561
                                        AMEC Environment and Infrastructure, Inc.                            $2,187,410                $2,098,775                        $0
          09/12/2013

          2013-15215
                                        Proposal for Engineering Services                                              $0                        $0               $2,550,000
          09/26/2013

          2013-15245
                                        Proposal for Engineering Services                                              $0                        $0               $1,172,000
          09/26/2013
                                                           CORPORATE GOVERNANCE AND FINANCE AUDITS
          2012-14669                    TVA’s Vehicle Allowance and Assigned Vehicle
                                                                                                                       $0                        $0                      $0
          05/03/2013                    Programs

          2013-14966
                                        Oversight of Distributor Compliance                                            $0                        $0                      $0
          08/28/2013

          2013-14993
                                        TVA Valley Investment Initiative Program                                       $0                        $0                      $0
          09/18/2013
     1
         The contract was subsequently not awarded to this vendor and the $5,758,943 in savings opportunities identified in the review was not realized by TVA.



52             Semiannual report April 1, 2013 – September 30, 2013
                                                                                                                             Appendix 2

  REPORT NUMBER                                                                               QUESTIONED        UNSUPPORTED      FUNDS PUT TO
                               TITLE
  AND DATE                                                                                         COSTS              COSTS        BETTER USE

                                                                    OPERATIONAL AUDITS

  2012-14594                   WBN Plant Unit 2 Construction Project
                                                                                                          $0               $0               $0
  05/08/2013                   Commodity Review

  2011-13846
                               Bellefonte Nuclear Plant Risk Program                                      $0               $0               $0
  06/28/2013

  2013-15221                   Agreed-Upon Procedures for CRS Green-e Energy
                                                                                                          $0               $0               $0
  07/01/2013                   Program Reporting Year 2012

  2012-14745                   Significant Equipment Failure Risk – Energy
                                                                                                          $0               $0               $0
  08/28/2013                   Delivery

                                                           INFORMATION TECHNOLOGY AUDITS

  2013-14983                   Protection of Personally Identifiable Information
                                                                                                          $0               $0               $0
  06/14/2013                   on TVA Desktop and Laptop Computers

  2012-14619
                               Effectiveness of Substation Modem Access                                   $0               $0               $0
  06/18/2013

  2012-14859
                               EAM Application Control Audit                                              $0               $0               $0
  07/11/2013

  2013-15175                   2013 Federal Information Security Management
                                                                                                          $0               $0               $0
  09/30/2013                   Act Evaluation

  TOTAL
                                                                                                   $2,915,673       $2,138,653      $36,521,892
  AUDITS (30)




OIG EVALUATION REPORTS ISSUED DURING THE SIX-MONTH PERIOD ENDED SEPTEMBER 30, 2013
  REPORT NUMBER                                                                               QUESTIONED        UNSUPPORTED      FUNDS PUT TO
                               TITLE
  AND DATE                                                                                         COSTS              COSTS        BETTER USE

  2012-14523                   Coal and Gas Operations Emergency
                                                                                                           $0               $0               $0
  05/14/2013                   Preparedness and Response

  2012-14623
                               WBN Unit 2 Quality Assurance Program                                        $0               $0               $0
  06/27/2013

  2012-14636                   Master Key Program Management – Property and
                                                                                                           $0               $0              $0
  08/28/2013                   Natural Resources

  2013-14950
                               TVA’s Succession Planning                                                   $0               $0              $0
  09/19/2013

  2012-14845                   TVA’s Nuclear Power Group Preventive Mainte-
                                                                                                           $0               $0              $0
  09/24/2013                   nance Program

  2012-14789
                               TVA’s Capital Projects Approval Process                                     $0               $0              $0
  09/27/2013

  TOTAL
  EVALUATIONS (6)
                                                                                                          $0               $0               $0

Note: A summary of or link to the full report may be found on the OIG’s Web site at www.oig.tva.gov.




                                                                            Semiannual report April 1, 2013 – September 30, 2013                  53
     Appendix 3

     TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • AUDITS

                                                                                                                       QUESTIONED                    UNSUPPORTED
                          AUDIT REPORTS                                 NUMBER OF REPORTS
                                                                                                                            COSTS                          COSTS


         A. For which no management decision has been
                                                                                                       0                                $0                              $0
            made by the commencement of the period


         B. Which were issued during the reporting period                                              3                      $2,915,673                       $2,138,653


         Subtotal (A+B)                                                                                3                      $2,915,673                       $2,138,653


         C. For which a management decision was made                                                       1
                                                                                                       2                         $728,263                         $39,878
            during the reporting period

           1. Dollar value of disallowed costs                                                         2                         $646,656                         $39,878

           2. Dollar value of costs not disallowed                                                     1                          $81,607                               $0

         D. For which no management decision has been
                                                                                                       1                      $2,187,410                       $2,098,775
            made by the end of the reporting period

         E. For which no management decision was made
                                                                                                       0                                $0                               $0
            within six months of issuance



     TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • EVALUATIONS

                                                                                                                       QUESTIONED                    UNSUPPORTED
                     EVALUATION REPORTS                                 NUMBER OF REPORTS
                                                                                                                            COSTS                          COSTS


         A. For which no management decision has been
                                                                                                       0                                $0                              $0
            made by the commencement of the period


         B. Which were issued during the reporting period                                              0                                $0                              $0


         Subtotal (A+B)                                                                                0                                $0                              $0


         C. For which a management decision was made
                                                                                                       0                                $0                              $0
            during the reporting period

           1. Dollar value of disallowed costs                                                         0                                $0                              $0

           2. Dollar value of costs not disallowed                                                     0                                $0                               $0

         D. For which no management decision has been
                                                                                                       0                                $0                               $0
            made by the end of the reporting period

         E. For which no management decision was made
                                                                                                       0                                $0                               $0
            within six months of issuance

     1
      	 The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2) when the same report contains 	
     	 both recommendations agreed to by management and others not agreed to by management.




54            Semiannual report April 1, 2013 – September 30, 2013
                                                                                                                           Appendix 3

TABLE II • FUNDS TO BE PUT TO BETTER USE • AUDITS

                                                                                                           FUNDS TO BE PUT TO
                     AUDIT REPORTS                                  NUMBER OF REPORTS
                                                                                                                  BETTER USE

    A. For which no management decision has been
                                                                                                   0                                $0
       made by the commencement of the period

    B. Which were issued during the reporting period                                             15                      $36,521,892

    Subtotal (A+B)                                                                               151                     $36,521,892

    C. For which a management decision was made                                                        2
                                                                                                 10                      $23,531,349
       during the reporting period

       1. Dollar value of recommendations agreed to
          by management                                                                          10                      $23,100,032


       2. Dollar value of recommendations not agreed
          to by management                                                                         3                        $431,317


    D. For which no management decision has been
                                                                                                   6                     $12,990,543
       made by the end of the reporting period

    E. For which no management decision was made
                                                                                                   0                                $0
       within six months of issuance



TABLE II • FUNDS TO BE PUT TO BETTER USE • EVALUATIONS

                                                                                                           FUNDS TO BE PUT TO
                EVALUATION REPORTS                                  NUMBER OF REPORTS
                                                                                                                  BETTER USE

    A. For which no management decision has been
                                                                                                   0                                $0
       made by the commencement of the period

    B. Which were issued during the reporting period                                               0                                $0

    Subtotal (A+B)                                                                                 0                                $0

    C. For which a management decision was made
                                                                                                   0                                $0
       during the reporting period

       1. Dollar value of recommendations agreed to
          by management                                                                            0                                $0


       2. Dollar value of recommendations not agreed
          to by management                                                                         0                                $0


    D. For which no management decision has been
                                                                                                   0                                $0
       made by the end of the reporting period

    E. For which no management decision was made
                                                                                                   0                                $0
       within six months of issuance


1
 	 The subtotal of reports (A+B) differs from the sum of C and D when the same report included recommendations for which a management
	 decision was made and others for which a management decision was not made by the end of the semiannual period.
2
  	The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2)
	 when the same report contains both recommendations agreed to by management and others not agreed to by management.




                                                             Semiannual report April 1, 2013 – September 30, 2013                           55
     Appendix 4


       AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING
       As of the end of the semiannual period, final corrective actions associated with 13 audits and 5 evaluations reported
       in previous semiannual reports were not completed. Presented below for each audit and evaluation are the report
       number and date and a brief description of final actions planned to resolve the open recommendations and the date
       management expects to complete final action.


            AUDIT REPORT                                      REPORT TITLE AND RECOMMENDATIONS ON
          NUMBER AND DATE                                      WHICH FINAL ACTION IS NOT COMPLETE

        2008-12127
                                     Hydroelectric Plant Automation – General, Physical, and Security Controls Review
        09/24/2009

                                     TVA agreed to implement the new access control system at all sites and further restrict access to key components.
                                     Management expects to complete final action by September 30, 2015.

        2010-13366
                                     Information Technology Organizational Effectiveness
        04/05/2011

                                     TVA agreed to review and update application road maps, develop processes to better align technology projects
                                     with TVA’s strategy, and define roles and responsibilities and the process for review in the service level management
                                     program. Management expects to complete final action by December 31, 2013.


        2010-13132
                                     Review of Physical and Logical Access for Contractors
        06/15/2011

                                     TVA agreed to create a cross-reference matrix of TVA roles to assets with the associated qualification/background
                                     requirements needed to gain access to that asset and develop a process to restrict contractor access to sensitive
                                     data and assets until the proper clearances have been obtained. Management expects to complete final action by
                                     December 31, 2014.

        2011-14177
                                     Regional Operations Center and System Operations Center Cyber Security Audit
        04/23/2012

                                     TVA agreed to (1) review the three servers without logon banners and, if technically feasible, add the logon
                                     banner, perform a comprehensive review of unnecessary services and protocols, implement restrictions on the
                                     basis of operations requirement, and research utilizing Secure Shell (version 2) for remote access with vendors
                                     and, if technically feasible, implement Secure Shell; and (2) monitor all production servers using the configuration
                                     management tool. Management expects to complete final action by December 31, 2014.

        2012-14425
                                     TVA Protection of Private Information
        09/24/2012

                                     TVA agreed to provide awareness and training to all employees regarding protecting privacy information; perform
                                     quality checks on data entered into the electronic data management system; update the employee discipline policy
                                     to include mishandling of privacy information and inform all employees of the changes; increase the frequency of
                                     General File and Print Servers scans to monthly; perform after-hours clean desk reviews; and ensure proper controls
                                     are implemented in the new Enterprise Content Management solution. Management expects to complete final
                                     action by May 29, 2015.




56     Semiannual report April 1, 2013 – September 30, 2013
                                                                                                                   Appendix 4


   AUDIT REPORT                             REPORT TITLE AND RECOMMENDATIONS ON
 NUMBER AND DATE                             WHICH FINAL ACTION IS NOT COMPLETE

2011-14244
                   TVA’s Direct Load Control Program
09/28/2012
                   TVA agreed to (1) develop a replacement option strategy, including meeting with the “Cycle and Save”
                   participants, and seek potential options, and (2) audit each distributor participating in the Direct Load Control
                   Program, per the terms of the contract to determine the effectiveness of installed switches, and modify distributor
                   credit calculations, accordingly, per the terms of the current contract. Management expected to complete final
                   action by September 30, 2013.

2011-14477
                   TVA’s Financial Trading Program
09/28/2012
                   TVA provided its cost/benefit analysis, qualitative assessments of operational and reputational risk, and evaluation
                   of new performance metrics to the OIG and agreed to generate a report periodically to comply with management
                   oversight needs. After discussions with TVA management, the OIG informed management it planned to obtain
                   the services of a consultant to provide a third-party review of the findings and corrective actions taken prior to
                   closing the recommendations. Final action will be determined after completion of a third-party review, expected
                   by December 31, 2013.

2012-14596
                   River Forecast Center Cyber Security Audit
12/20/2012

                   TVA agreed to adhere to the TVA Continuous Monitoring Strategy and develop a backup and recovery process
                   for the nonpower SCADA system and ensure necessary personnel are properly trained should the system fail.
                   Management expects to complete final action by September 30, 2014.

2012-14576
                   Cartus Corporation
01/18/2013
                   TVA agreed to pursue recovery of $347,359 in overbillings. Management expects to complete final action by
                   January 18, 2014.

2010-13627-01
                   Risk of Significant Equipment Failures in River Operations
01/18/2013
                   TVA agreed to (1) evaluate requirements for updating the equipment condition assessment (ECA) database when
                   configuration changes occur; (2) modify policies and procedures to standardize communication of condition
                   assessments coded red; (3) resolve discrepancies between the ECA and system health report; (4) implement
                   an access review process for the ECA; (5) modify policies and procedures to require review and concurrence by
                   appropriate managers of all assessments coded red; and (6) update the ECA database to include River Operations’
                   fire protection system health reports. Management expects to complete final action by November 18, 2013.

2012-14618
                   Unix Operating System Security Audit
01/23/2013
                   TVA agreed to expand configuration monitoring for UNIX systems and use new tools to manage UNIX patches.
                   Management expects to complete final action by January 30, 2014.

2012-14567
                   Building and Infrastructure Failure Risks
01/30/2013
                   TVA agreed to (1) submit a risk-based budget request for additional funding in FY 2014, (2) reexamine TVA’s
                   approach to challenged properties under its Strategic Real Estate Plan, (3) meet with executives and operating
                   unit leaders to improve communication of Facilities Asset Management plans and projects, (4) enhance Tririga
                   functionality for building asset information, and (5) address weaknesses in the Tririga production database.
                   Management expects to complete final action by March 31, 2015.

2012-14886-01
                   TVA Compliance with the Improper Payment Improvement Act for FY 2012
03/13/2013

                   TVA agreed to consolidate current spreadsheets used to calculate improper payments into a single spreadsheet.
                   This spreadsheet will be reconciled to TVA’s annual improper payment report and reviewed and approved by
                   the Manager, Accounts Payable or his designee. TVA management intends to have this completed for FY 2013
                   improper payment reporting. Management expects to complete final action by November 15, 2013.




                                                   Semiannual report April 1, 2013 – September 30, 2013                                   57
     Appendix 4


        Evaluation REPORT                              REPORT TITLE AND RECOMMENDATIONS ON
         NUMBER AND DATE                                WHICH FINAL ACTION IS NOT COMPLETE

        2008-11829
                              Review of TVA Records Retention
        06/02/2010

                              TVA agreed to continue current plans to replace the Electronic Data Management System. Management expects
                              to complete final action by May 29, 2015.

        2009-12991
                              Review of TVA Groundwater Monitoring at Coal Combustion Products Disposal Areas
        06/21/2011

                              TVA agreed to continue with the assessment plan and initiate corrective actions for Cumberland and Gallatin fossil
                              plants. Management expects to complete final action by June 21, 2014.


        2011-13839
                              Coal Terminals Supplying TVA
        11/05/2012


                              TVA agreed to (1) continue plans to implement monitoring of terminal inbound shipments from the mine to the
                              terminal, (2) require a review of single shipment weight variances when warranted, (3) implement a solution to
                              correct the flyover process inaccuracies, (4) require a reconciliation of differences between TVA and terminal
                              inventory records be performed on a routine basis, (5) require a review of the individual stockpiles for inventory
                              flyover adjustments to determine if an investigation is necessary, (6) take actions to decrease the time between
                              when the adjustment is booked by TVA and notification is made to the terminals, and (7) certify the scales at the
                              TVA plants that receive coal from terminals. Management expects to complete final action by November 5, 2013.


        2012-14506
                              Physical Assaults Risk
        12/13/2012

                              TVA agreed to develop a procedure for individuals who receive workplace-violence incident reports detailing
                              which workplace-violence incidents should be reported to TVA Security and Emergency Management, along with a
                              uniform way of submitting that information. Management expects to complete final action by December 13, 2013.

        2012-14535
                              Master Key Program Management - Energy Delivery
        03/21/2013

                              TVA agreed to secure facilities protected by master access keys to minimize the risk posed by keys outside TVA’s
                              control. Management expects to complete final action by March 21, 2014.




58     Semiannual report April 1, 2013 – September 30, 2013
                                                                                                         Appendix 5

                                                                                                     1
INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS

     REFERRALS
           Subjects Referred to U.S. Attorneys                                                  18

           Subjects Referred to State/Local Authorities                                         0

     RESULTS
           Subjects Indicted                                                                    0

           Subjects Convicted                                                                   2

           Pretrial Diversion                                                                   0
           Prosecution Declined (No. of individuals)                                            16


1
    These numbers include task force activities and joint investigations with other agencies.




                                                  Semiannual report April 1, 2013 – September 30, 2013                59
     Appendix 6
     HIGHLIGHTS - STATISTICS
                                                                            SEPT 30, 2013           MAR 31, 2013    SEPT 30, 2012   MAR 31, 2012       SEPT 30, 2011
          AUDITS
          AUDIT STATISTICS
          Carried Forward                                                                 38                  32              35              34                  46
          Started                                                                         21                  23              28              23                  16
          Canceled                                                                        (1)                 (1)             (6)             (2)                 (2)
          Completed                                                                      (30)                (16)            (25)            (20)               (26)
          In Progress at End of Reporting Period                                          28                  38              32              35                  34

          AUDIT RESULTS (Thousands)
          Questioned Costs                                                            $2,916              $1,262          $11,708         $5,110              $1,327
          Disallowed by TVA                                                             $647              $2,039           $9,153         $5,695               $655
                                                                                                                                1                  2
          Recovered by TVA                                                            $2,447                $559           $4,168         $1,143               $326

          Funds to Be Put to Better Use                                             $36,522                   $0          $10,204         $6,702              $4,945
          Agreed to by TVA                                                          $23,100                   $0           $1,235         $9,558             $20,005
          Realized by TVA                                                             $2,479                $145           $1,235         $2,4413             $1,162

          OTHER AUDIT-RELATED PROJECTS
          Completed                                                                         5                  7              10               9                  19
          Cost Savings Identified/Realized (Thousands)                                    $0                  $0              $0              $0                  $0

          EVALUATIONS
          Completed                                                                         6                  6               6               1                   8
          Cost Savings Identified/Realized (Thousands)                                    $0                  $0              $0              $0                  $0

          INVESTIGATIONS 4
          INVESTIGATION CASELOAD
          Opened                                                                         173                 134             148             178                190
          Closed                                                                         158                 105             157             202                228
          In Progress at End of Reporting Period                                         179                 160             128             146                163

          INVESTIGATIVE RESULTS (Thousands)
          Recoveries                                                                  $899.9                  $0         $4,416.4          $17.5                  $8
          Savings                                                                     $550.4              $770.2         $1,454.7             $0                  $0
          Fines/Penalties                                                             $603.8                  $0             $0.3           $1.7                  $1
          Other Monetary Loss                                                         $519.3                  $0            $83.4       $496,500              $9,6935

          MANAGEMENT ACTIONS
          Disciplinary Actions Taken (# of Subjects)                                      18                  16              11              19                  23

          Counseling/Management Techniques Employed (# of cases)                          20                  14              20              24                  18
          Debarment                                                                         0                  0               0               2                   0

          PROSECUTIVE ACTIVITIES (# of Subjects)
          Referred to U.S. Attorneys                                                      18                  13              12              14                  22
          Referred to State/Local Authorities                                               0                  0               7               1                   3
          Indicted                                                                          0                  2               1               5                   6
          Convicted                                                                         2                  4               1               4                   5
          Pretrial Diversion                                                                0                  0               0               1                   1

      1
        Includes $109,054 recovered in excess of amounts decided by management.
      2
        Includes $198,352 recovered in excess of amounts decided by management.
      3
        Excludes $18,474 in savings realized in excess of amounts decided by management.
      4
        These numbers include task force activities and joint investigations with other agencies.
      5
        Category added in semiannual period ended September 30, 2011.




60           Semiannual report April 1, 2013 – September 30, 2013
                                     Appendix 6




Semiannual report April 1, 2013 – September 30, 2013   61
     Appendix 7



      GOVERNMENT CONTRACTOR AUDIT FINDINGS
      The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General
      appointed under the Inspector General Act of 1978 to submit an appendix on final, completed contract
      audit reports issued to the contracting activity that contain significant audit findings—unsupported,
      questioned, or disallowed costs in an amount in excess of $10 million, or other significant findings—as part
      of the Semiannual Report to Congress. During this reporting period, OIG issued no contract review reports
      under this requirement.




62      Semiannual report April 1, 2013 – September 30, 2013
                                                                                            Appendix 8



Peer Reviews of the TVA OIG

Audits Peer Review
IG audit organizations are required to undergo an external peer review of their system of quality control
at least once every three years, based on requirements in the Government Auditing Standards. Federal
audit organizations can receive a rating of pass, pass with deficiencies, or fail. TVA OIG underwent its most
recent peer review of its audit organization for the period ended September 30, 2010. The review was
performed by an ad hoc team appointed by the Council of Inspectors General on Integrity and Efficiency
and led by the U.S. Department of Education (Education) Office of the Inspector General (OIG). Education
OIG issued the report, dated March 21, 2011, in which it concluded that the TVA OIG Audit organization’s
system of quality control for the fiscal year ended September 30, 2010, was suitably designed and
complied with to provide the OIG with reasonable assurance of performing and reporting in conformity
with applicable professional auditing standards in all material respects. Accordingly, TVA OIG received a
rating of pass. The peer review report is posted on our Web site at http://oig.tva.gov/peer-review.html.


Investigations Peer Review
Investigative operations undergoes an external peer review, Quality Assessment Review (QAR), at least
once every three years. During the semiannual period ended September 30, 2010, the Office of Personnel
Management (OPM) OIG conducted a QAR of the TVA OIG Investigative Operations. The OPM OIG
found the “…system of internal safeguards and management procedures for the investigative function of
the TVA OIG in effect for the year ending August 1, 2010, is in compliance with the Quality Standards for
Investigations and the Attorney General guidelines. These safeguards and procedures provide reasonable
assurance of conforming with professional standards in the conduct of investigations.” The QAR report can
be found on our Web site at http://oig.tva.gov/peer-review.html.


Note: During this semiannual period, the Department of Commerce OIG is conducting a QAR of the
TVA OIG Investigative operations. The results will be posted to our Web site when the review has been
completed.




                                                 Semiannual report April 1, 2013 – September 30, 2013           63
     Glossary


      Disallowed Cost – A questioned cost that management, in a management decision, has sustained or
      agreed should not be charged to the agency.


      Final Action – The completion of all management actions, as described in a management decision, with
      respect to audit findings and recommendations. When management concludes no action is necessary, final
      action occurs when a management decision is made.


      Funds Put To Better Use – Funds which the OIG has disclosed in an audit report that could be used
      more efficiently by reducing outlays, deobligating program or operational funds, avoiding unnecessary
      expenditures, or taking other efficiency measures.


      Improper Payment – Any payment that should not have been made or was made in an incorrect amount
      under statutory, contractual, administrative, or other legally applicable requirements, as defined in the IPIA.


      Management Decision – Evaluation by management of the audit findings and recommendations
      and the issuance of a final decision by management concerning its response to such findings and
      recommendations.


      Questioned Cost – A cost the IG questions because (1) of an alleged violation of a law, regulation,
      contract, cooperative agreement, or other document governing the expenditure of funds; (2) such cost is
      not supported by adequate documentation; or (3) the expenditure of funds for the intended purposes was
      unnecessary or unreasonable.


      Unsupported Costs – A cost that is questioned because of the lack of adequate documentation at the
      time of the audit.




64      Semiannual report April 1, 2013 – September 30, 2013
                                                                                                 ABBREVIATIONS & ACRONYMS
The following are acronyms and abbreviations widely used in this report.

Arnold AFB................................................................................................................................. Arnold Airforce Base
BLN................................................................................................................................................ Bellefonte Nuclear
BOARD................................................................................................................................... TVA Board of Directors
CEO........................................................................................................................................ Chief Executive Officer
CIGIE...........................................................................Council of the Inspectors General on Integrity and Efficiency
CRS.............................................................................................................................. Center for Resource Solutions
CTD............................................................................................................................Commodity Tracking Database
DSEP.......................................................................................................Detailed Scoping, Estimating, and Planning
DOJ.................................................................................................................................. U.S. Department of Justice
DOL....................................................................................................................................U.S. Department of Labor
EAM...................................................................................................... Enterprise Asset Management Software Tool
ED......................................................................................................................................... Economic Development
Education.................................................................................................................... U.S. Department of Education
ERM............................................................................................................................... Enterprise Risk Management
FBI............................................................................................................................. Federal Bureau of Investigation
FISMA................................................................................................ Federal Information Security Management Act
FY............................................................................................................................................................... Fiscal Year
GUBMK.....................................................................................Gilbert Union Boiler-Morrison Knudsen Constructors
Holtec...................................................................................................................................Holtec International, Inc.
IEEPA................................................................................................ International Emergency Economic Powers Act
IT........................................................................................................................................... Information Technology
NC............................................................................................................................................. Nuclear Construction
NRC..........................................................................................................................Nuclear Regulatory Commission
NPG.......................................................................................................................................... Nuclear Power Group
OIG............................................................................................................................ Office of the Inspector General
OPM....................................................................................................................... Office of Personnel Management
OWCP.................................................................................................... Office of Workers’ Compensation Programs
PII.......................................................................................................................... Personally Identifiable Information
PM.........................................................................................................................................Preventive Maintenance
PMO................................................................................................................Preventive Maintenance Optimization
QA.................................................................................................................................................. Quality Assurance
QAR................................................................................................................................. Quality Assessment Review
OSC............................................................................................................................. U.S. Office of Special Counsel
Signal........................................................................................................................... Signal Industrial Products, Inc.
SPP........................................................................................................................Standard Programs and Processes
Sunshine Act............................................................................................................ Government in the Sunshine Act
SWCI....................................................................................................................Stone & Webster Construction, Inc.
TVA................................................................................................................................... Tennessee Valley Authority
U.S..........................................................................................................................................................United States
VII......................................................................................................................................Valley Investment Initiative
WBN............................................................................................................................................... Watts Bar Nuclear




                                                                              Semiannual report April 1, 2013 – September 30, 2013                                              65
     TENNESSEE VALLEY AUTHORITY
     OFFICE OF THE INSPECTOR GENERAL
     400 West Summit Hill Drive
     Knoxville, Tennessee 37902



     The OIG is an independent organization charged with conducting audits, evaluations, and investigations
     relating to TVA programs and operations, while keeping the TVA Board and Congress fully and currently
     informed about problems and deficiencies relating to the administration of such programs and operations.


     The OIG focuses on (1) making TVA’s programs and operations more effective and efficient; (2) preventing,
     identifying, and eliminating waste, fraud, and abuse and violations of laws, rules, or regulations; and
     (3) promoting integrity in financial reporting.


     If you would like to report to the OIG any concerns about fraud, waste, or abuse involving TVA programs or
     violations of TVA’s Code of Conduct, you should contact the OIG EmPowerline system. The EmPowerline
     is administered by a third-party contractor and can be reached 24 hours a day, seven days a week, either by
     a toll-free phone call (1-855-882-8585) or over the Web (www.oigempowerline.com). You may report your
     concerns anonymously or you may request confidentiality. 


     Report concerns to the OIG Empowerline.




                                               BE A HERO
                                                                       REPORT FRAUD




                                            Contact the OIG EmPowerline® at 855-882-8585
                                                               or online at www.OIGempowerline.com

                                                                    YOU CAN MAKE A DIFFERENCE
                                            If you see or suspect wrongdoing, say something. TVA may be able to recover money and you could receive a cash reward from the
                                           TVA Office of the Inspector General. Visit our EmPowerline® Web site at www.oigempowerline.com or call toll-free at 855-882-8585.




66     Semiannual report April 1, 2013 – September 30, 2013
        OIG
Leadership
 PHILOSOPHY
The TVA OIG strives to be a high performing organization made up of dedicated individuals
who are empowered, motivated, competent, and committed to producing high quality work
that improves TVA and life in the Valley.


Each of us has important leadership, management, team, and technical roles. We value
integrity, people, open communication, expansion of knowledge and skills, creative problem
solving and collaborative decision making.




                                         Semiannual report April 1, 2013 – September 30, 2013   67
                                          Office of the Inspector General
                                          Tennessee Valley Authority
                                          Semiannual Report
                                          April 1, 2013 - September 30, 2013


68   Semiannual report April 1, 2013 – September 30, 2013
